    Office of
Inspector General
                            U.S. Department of the Interior


                           SEMIANNUAL
                             REPORT
Highlights
Allegations of
Misconduct by
Employees Involved
in the Cobell Litigation
(page 3)

Security of
Departmental IT
Systems Falls Short
(page 7)

Transfer of
Water Project
Responsibilities
Places Federal
Revenues at Risk
(page 20)

MMS Gainsharing
Awards Found
Unreasonably High
(page 24)

                                            October 2002
Cover: Photo taken by H.A. McGill, of Darnestown, MD
Message from the Inspector General


        I am pleased to present the results and accomplishments of the Office of Inspector General
(OIG) from April 1, 2002 through September 30, 2002. During this reporting period, we concentrated
our efforts on helping the Department of the Interior (DOI or Department) Bureaus and offices address
their most serious management challenges.

        To this end, over the last six months, our audit and evaluation staff focused on a number of
programs that we identified as at-risk or that were brought to our attention by Departmental
management as areas of concern. We highlight our findings related to the Information Technology (IT)
Security within the Department, the Minerals Management Service's (MMS) gainsharing awards
program, and the Bureau of Reclamation's (BOR) agreements with the California Water Authority. I am
proud to report that the results of these audits and evaluations were well-received by the Department,
which has already taken action to correct many of the deficiencies we found.

         During this reporting period, our investigators brought to fruition investigations that resulted in 27
indictments, 15 convictions, and 19 sentencings, with nearly a million dollars in criminal judgments and
restitutions. While these numbers are remarkable statistically, they tend to be concentrated in the
Bureau of Indian Affairs (BIA) and tribal governments, areas in which we reported disturbing trends of
fraud and corruption in our last Semiannual Report. Our investigations into tribal corruption resulted in
numerous charges of embezzlement, money laundering, conspiracy, theft, bribery, and false claims. As
we remain concerned about this trend, we are working with the Department to develop strategies to
combat the widespread corruption and integrity problems within the tribes and BIA.

          Following the issuance of two reports in July and August 2001 by the Court Monitor in Cobell,
et al. v. Gale A. Norton, Secretary of the Interior, et al. (Cobell), the Solicitor, William G. Myers,
III, referred to the OIG seven issues relating to allegations that DOI senior managers and attorneys
engaged in misconduct. Following preliminary investigation, the OIG determined that further
investigation was not warranted in four of the seven issues and so advised the Solicitor in October
2001. The OIG pursued an aggressive investigation into the remaining three issues, however, and
conducted 66 interviews at various locations throughout the country. In the end, we found no criminal
behavior or administrative misconduct on the part of any current DOI employees; however, we did not
have an opportunity to interview many key former employees that played a role and, therefore, were not
able to draw a conclusion concerning their conduct.

        We also reported in the last Semiannual Report management and financial accountability
deficiencies in the Insular Area (IA) governments. Unfortunately, that trend remains a concern. Insular
Area governments, for the most part, continue to ignore our audit recommendations and fail to
sufficiently respond to our audit reports. We again identified severe deficiencies in controlling and
accounting for Federal monies and in one case found that transactions for one facility were so
mismanaged that the situation could serve as a case study on the misuse and waste of public funds.
Because IA governments have not adequately responded to our report findings, we are working with
the Department's Office of Insular Affairs to encourage adoption and implementation of our


          Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
Message from the Inspector General (continued)




   recommendations. We are also urging other Federal agencies that provide funds to IA governments to
   perform better fiscal oversight. Additionally, we recently appointed a dedicated advisor with audits
   background to work closely with IA governments, public auditors, and local authorities to expand their
   capability and expertise in managing both Federal and local funds.

           We believe that this collaborative effort will serve as a catalyst to improve accountability in the
   Insular Areas for Federal dollars.

           Our office will continue to target these and other significant issues affecting the Department and
   its Bureaus and offices. We are dedicated to ensuring that our efforts result in much-needed changes to
   reduce and prevent the waste of taxpayers' money and improve the accountability of government to the
   American public.




                                                 Earl E. Devaney
                                                 Inspector General




        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                                                                                            Contents
                                                                                                                                      Page

Statistical Highlights .............................................................................................................. ii
   Organization ......................................................................................................................1
   Mission and Top Management Challenges .......................................................................2
Significant Investigations and Audit Activities ......................................................................3
   Department of the Interior ..................................................................................................3
   Bureau of Indian Affairs.....................................................................................................8
   Bureau of Land Management ...........................................................................................17
   Bureau of Reclamation .....................................................................................................19
   Insular Areas.....................................................................................................................21
   Minerals Management Service .........................................................................................24
   National Park Service .......................................................................................................26
   Office of the Special Trustee for American Indians.........................................................29
   U.S. Fish and Wildlife Service .........................................................................................30
   U.S. Geological Survey ............................................................................................................ 31

Appendices

 1 - Summary of Audit and Related Activities from April 1, 2002 through
     September 30, 2002 ......................................................................................................32
 2 - Audit Reports Issued or Processed and Indirect Cost Proposals Negotiated
     During the 6-Month Period ended September 30, 2002 ...............................................33
       - Internal Reports .....................................................................................................33
       - Contract and Grant Audits .....................................................................................35
       - Single Audits..........................................................................................................35
       - Indirect Cost Proposals ..........................................................................................45
 3 - Monetary Impact of Audit Activities from April 1, 2002 through
     September 30, 2002 ......................................................................................................60
 4 - Non-Federal Funding Included in Monetary Impact of Audit Activities
     During the 6-Month Period ended September 30, 2002 ...............................................61
 5 - Audit Resolution Activities...........................................................................................62
       - Table I - Inspector General Reports with Questioned Costs..................................62
       - Table II - Inspector General Reports with Recommendations that
         Funds be Put to Better Use ....................................................................................63
       - Table III - Inspector General Reports with Lost or Potential
         Additional Revenues .............................................................................................64
 6 - Summary of Audit Reports over 6 Months Old Pending Management Decisions .......65
       - Internal Audits........................................................................................................65
       - Contract and Grant Audits .....................................................................................65
       - Single Audits..........................................................................................................67
 7 - Summary of Internal Audit Reports over 6 Months Old Pending
     Corrective Action .........................................................................................................70
 8 - Summary of Insular Area Reports over 6 Months Old .................................................74
       - Internal Audits........................................................................................................74
       - Single Audits..........................................................................................................76
 9 - Program Integrity Reports Issued ................................................................................78
10 - Cross-References to the Inspector General Act............................................................79
         Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                                      i
Statistical Highlights

  Audit Activities and Impacts
     Reports Issued ............................................................................................................ 30
         - Internal Audits .......................................................................................        22
         - Contracts and Grant Audits ...................................................................                   8
     Single Audits Processed ............................................................................................. 251
     Indirect Cost Proposals Negotiated ............................................................................ 406
     Total Monetary Impact (Dollar Amounts in Millions) .............................................. $29.4
         - Questioned Costs (Includes Unsupported Costs) .................................... $9.4
         - Recommendations that Funds be Put to Better Use .............................. $18.4
         - Lost or Potential Additional Revenues .................................................. $1.6
     Internal Audit Recommendations Made .................................................................... 107
     Internal Audit Recommendations Resolved ..............................................................                      62

  Investigative Activities
     Cases Closed this Period ............................................................................................     97
     New Cases Opened ....................................................................................................    119
     Hotline Complaints/Inquiries Received .....................................................................              166

  Criminal Investigative Activities
     Indictments/Informations ...........................................................................................         27
     Convictions ................................................................................................................ 15
     Sentencings ................................................................................................................ 19
         - Jail .................................................................................................. 177 mos.
         - Probation ........................................................................................ 612 mos.
         - Community Service ....................................................................... 225 hrs.
     Criminal Judgments/Restitutions ....................................................................... $807,467
     Criminal Matters Referred for Prosecution this Period .............................................                          38
     Criminal Matters Declined this Period ......................................................................                 22

  Civil Investigative Activities
     Civil Referrals ............................................................................................................ 2
     Civil Recoveries ............................................................................................. $3,050,300
     Civil Declinations ......................................................................................................    5

  Administrative Investigative Activities
     Personnel Actions ...................................................................................................... 23
        - Removals ..............................................................................................        1
        - Suspensions ..........................................................................................         5
        - Resignations ..........................................................................................        5
        - Reprimands/Counseling ........................................................................                 8
        - Other Personnel Actions .......................................................................                2
        - General Policy Actions .........................................................................               2
     Administrative Recoveries/Restitutions ............................................................. $670,100
     Contractor Suspensions ..............................................................................................     3
     Contractor Debarments ..............................................................................................      7
     Departmental Cost Savings ................................................................................ $280,417

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                                  ii
                                   Office of Inspector General, Department of the Interior
                                                                          O rganization


                                      Inspector General


                                            Deputy
                                       Inspector General




          Chief of Staff


                                                                           Office of
                                                                        General Counsel

              Chief
        Information Officer




Assistant Inspector     Assistant Inspector       Assistant Inspector     Assistant Inspector
   General for             General for               General for             General for
      Audits           Management & Policy        Program Integrity         Investigations

  Deputy AIG                  Deputy AIG             Deputy AIG              Deputy AIG




     Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                              1
Introduction



                                                        Mission
              The mission of the Office of Inspector General is to promote excellence in
      the programs, operations, and management of the Department of the Interior.

                                                 Responsibilities
             The OIG is responsible for independently and objectively identifying risks
      and vulnerabilities that directly impact, or could impact, the Department’s ability
      to accomplish its mission. We are required to keep the Secretary and the
      Congress fully and currently informed about problems and deficiencies relating to
      the administration of Departmental programs and operations. Effective
      implementation of this mandate addresses the public’s demand for greater
      accountability in the administration of Government programs and operations and
      the demand for programs that work better, cost less, and get the results Americans
      want.

                                                       Activities
              The OIG accomplishes its mission through conducting audits, evaluations,
      and investigations relating to programs and operations of the Department. The
      OIG has reorganized and re-engineered its internal operations to provide higher
      quality products and services in areas that are of the highest priority and provide
      the greatest return on investment.



                     TOP MANAGEMENT CHALLENGES OF THE
                         DEPARTMENT OF THE INTERIOR
                                               As Reported to the Congress

     •   Maintenance of Facilities and Cultural Resources*
     •   Procurement/Contracts/Grants
     •   Health and Safety
     •   Information Technology
     •   Resource Protection and Restoration
     •   Responsibilities to American Indians, Alaska Natives and Island Communities
     •   Financial Management
     •   Revenue Collections
     •   Government Performance and Results Act
     •   Emergency Management

     *Although Cultural Resources were contemplated when the Top Management challenges were published, they were
     not explicitly included. Cultural Resources are added here for clarity.



     Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                               2
                                            Significant Audit Activities and Investigations

                                                      Department of the Interior
                          Following the issuance of two reports by the court monitor in the case
                 Cobell, et al. v. Gale A. Norton, Secretary of the Interior, et al.), the
                 Department of the Interior Solicitor referred seven specific issues to the OIG
                 relating to allegations that senior managers and attorneys of the DOI engaged in
                 misconduct. Following a preliminary investigation, we determined that three issues
                 merited further examination. The three subjects included:
Allegations of                • The process that led to the decision to conduct a statistical
Misconduct by                   accounting of Individual Indian Money (IIM) accounts and the
Employees                       ratification of that decision by Secretary Norton

Involved                      • The alleged failure to timely and fully notify the Court about the
in the Cobell                   state of the Trust Asset and Accounting Management System
                                (TAAMS)
Litigation
                              • The failure to retain and produce records in accordance with
                                discovery requests and orders

                          While we found no evidence of criminal behavior or administrative
                 misconduct on the part of any current DOI employee, we uncovered bad judgment,
                 unfocused management, a myriad of definitional issues, and extreme hostility among
                 the players and entities, all fueled by a multitude of motivations, many of which were
                 well-intentioned but among the least of which was to protect and advance the
                 interests of Individual Indian Trust account holders.


                                    Click Here for Full Report




      Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               3
Significant Audit Activities and Investigations
Department of the Interior

Department of                 The OIG completed an initial assessment of the Department of the Interior's
Interior,           Homeland Security efforts to enhance the security of its critical infrastructures. This
Homeland            is the first in what will be a periodic series of assessment reports of the
                    Department's status and progress in implementing needed Homeland Security
Security            measures. An integrated team of auditors and investigators from our Office of
Assessment #1       Program Integrity conducted the assessment by interviewing key officials in the DOI
                    National Business Center (NBC), Bureau of Reclamation, and National Park
                    Service (NPS), visiting three field sites.

                            We found that BOR, NPS, and NBC had taken appropriate initial steps to
                    establish adequate administrative control over supplemental security funds of $92.6
                    million appropriated by Congress for fiscal years 2001 and 2002. However, the
                    progress of these efforts does not reflect a sense of urgency for the completion of
                    these projects. The Department and Bureaus need to enhance their efforts overall
                    and ensure that timely action is taken on security issues identified by the OIG.


Department of               The OIG conducted a second review in our ongoing assessment of the
the Interior,       Department of the Interior efforts to protect its critical infrastructure. An OIG
Homeland            Program Integrity team composed of cyber security, audit and investigative person-
                    nel conducted this assessment. The team made specific findings related to:
Security
Assessment #2                    • National Critical Infrastructure (NCI) sites

                                 • Management Structure for Information Technology (IT or cyber)
                                   security and efforts to protect sensitive information concerning NCI
                                   sites




                    These two reports are exempt from disclosure to the public under the
                    Freedom of Information Act and therefore will not appear on the OIG
                    Web site.




       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                  4
                                              Significant Audit Activities and Investigations

                                                       Department of the Interior
Interior's                 The independent certified public accounting firm of KPMG LLP, under
Franchise         contract with the OIG, rendered an unqualified opinion on the financial statements of
                  the Department of the Interior's Franchise Fund (IFF) for fiscal year 2001. The
Fund Receives
                  firm's report, however, identified five material internal control weaknesses and two
Unqualified       instances of non-compliance with laws and regulations.
Opinion, but
Internal                  Specifically, IFF had not: (1) fully implemented controls and procedures to
Control           ensure obligations were recorded as incurred, (2) redesigned the manual process
Weaknesses        for recording MMS activity, (3) fully implemented controls and procedures to
                  ensure that accruals were recorded prior to the end of the reporting period,
Identified
                  (4) consistently recorded financial transactions and reconciled financial accounts in a
                  timely manner, or (5) established clear lines of responsibility for reporting IFF
                  transactions. KPMG also found that IFF did not comply with the Federal Financial
                  Management Improvement Act of 1996 (FFMIA). Specifically, IFF's financial
                  management systems did not comply with Federal financial management systems
                  requirements or Federal accounting standards. Additionally, KPMG determined
                  IFF was not always requiring advances prior to performing work as required by
                  Public Law 104-208 (§ 113). IFF officials generally concurred with all the report's
                  recommendations and indicated the necessary corrective actions would be taken.


Departmental               The independent certified public accounting firm of KPMG LLP, under
Offices Receive   contract with the OIG, rendered an unqualified opinion on the consolidated financial
Unqualified       statements of the Departmental Offices for fiscal year 2001. The KPMG report,
                  however, identified four material internal control weaknesses related to financial
Opinion, but      reporting. Specifically, KPMG determined that the Departmental Offices need to
Need to           improve controls over: (1) Tribal and other special trust funds, (2) undelivered
Improve           orders and accruals, (3) reconciling transactions with other Interior components,
Internal          and (4) IFF financial reporting. Additionally, the report disclosed that the
Controls          Departmental Offices' financial management systems failed to substantially comply
                  with the FFMIA requirements for Federal financial management systems and
                  Federal accounting standards. Departmental Offices' officials generally
                  concurred with all the identified findings and recommendations and indicated that
                  they would correct the weaknesses.




      Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                5
Significant Audit Activities and Investigations
Department of the Interior

Department                  In our evaluation, we found that DOI's capital investment process does
Needs to Take      not always focus on DOI as an enterprise but as a group of unconsolidated
Control of IT      entities. That is, projects are not viewed from a DOI perspective but from a
                   Bureau perspective and, therefore, are not directed at effectively and effeciently
Investments
                   accomplishing the Department’s goals. We believe this failure is a result of a
                   decentralized approach to Information Technology investments.

                          We identified practices that would provide a sound framework for the
                   Department to begin developing a disciplined and controlled IT capital
                   investment process, including:

                                • Establishing a Departmental (rather than Bureau)
                                  multi-tiered selection, review, and approval process for all
                                  significant IT investment projects

                                • Establishing performance measures and selection criteria for IT
                                  projects

                                • Considering a single IT budget for the Department

                                • Establishing a training program for IT project management

                          The Department concurred with our findings and is currently
                   developing an IT capital planning process that can better identify projects that focus
                   on Department-wide initiatives.


New                        In September 2002, we issued a report on the travel portion of the
Departmental       Department's Integrated Charge Card Program. We found that supervisors were
Guidelines         not comparing travel vouchers to monthly charge card statements, resulting in
                   potential undetected abuse of government credit cards. This is essentially the same
Address
                   weakness we found in the small purchase charge card, as reported in our April
Weaknesses in      2002 Semiannual Report.
Controls Over
Travel Card                In response to our report on small purchases charge card, the
                   Department has developed guidance that requires supervisors to compare vouchers,
                   receipts, and invoices to monthly statements. We believe that this procedure, if
                   properly implemented, will significantly reduce the risk of misuse of the travel card.

                            We noted that the Department has taken effective action to reduce both the
                   overall rate of delinquencies in travel card usage and the amount of
                   charge-offs by the Bank of America. Click Here for Full Report

       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 6
                                             Significant Audit Activities and Investigations
                                                      Department of the Interior
Security of              In our second annual evaluation of the DOI's security program and
Department IT    practices over non-national security IT systems, we concluded that despite the
Systems Falls    Department's actions to improve its IT security, overall, the security program
Short            remains inadequate. Further, the Department should continue to report this as a
                 material weakness until improvements are made.

                         In our report, we identified shortcomings in the areas of security
                 policies, procedures, and controls. Specifically, DOI should:

                              • Hold program officials and Bureau/office Chief Information Officers
                                (CIO) accountable for improving IT security and ensuring security
                                plans are practiced throughout the life cycle of all IT systems

                              • Implement sound security policies and procedures

                              • Monitor and evaluate Bureau and office compliance with Federal IT
                                security standards and guidelines

                              • Integrate security costs into the capital planning and investment
                                control process

                         In our report, we also suggested some organizational changes to enhance
                 the level of visibility and authority of the DOI's CIO.

                          The DOI concurred with our findings and is in the process of developing
                 and implementing policies and procedures and analyzing improvement areas in
                 existing policies.

                       This report is exempt from disclosure to the public under the
                 Freedom of Information Act and therefore will not appear on the OIG
                 Web site.




      Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               7
Significant Audit Activities and Investigations
Bureau of Indian Affairs
                             Three individuals were taken into custody following their recent
                    indictments by a Federal grand jury in the Southern District of Florida on charges
                    of embezzlement, money laundering, and conspiracy arising from the theft of tribal
                    funds from the Seminole Tribe of Florida. The 15-count indictment alleges that
                    Danny Wisher, the tribe’s Technical Advisor; Timmy Cox, the Operations Officer;
                    and Michael Crumpton, Wisher’s son-in-law who worked at the tribe as an
                    employee of a company owned by Wisher, stole more than $2.7 million from the
Two Arrested        tribe by making illegal payments to Virtual Data, Ltd. Virtual Data, a shell
and a Third         company incorporated in Delaware in March 2000, was ostensibly an information
                    services business; however, the corporation conducted no business of any kind.
Surrendered
                    The trio then allegedly laundered the funds by moving the money to a bank
Following           account in Belize, Central America, which was controlled by Wisher. Crumpton
Indictment in       voluntarily surrendered to the U.S. Marshal’s Service, and Cox and Wisher were
International       arrested at the Miami International Airport as they returned from Nicaragua. Trial
Money               is pending.
Laundering                   These charges are the latest to arise from the continuing joint investigation
Case                with the FBI and IRS into the activities of persons associated with the Seminole
                    Tribe of Florida and the tribe’s gaming operations. As reported in our April 2002
                    Semiannual Report, the tribe’s former Director of Aviation, Charles Kirkpatrick,
                    pled guilty to tax perjury for his failure to report hidden commissions he received on
                    tribal aircraft deals he conducted for the Seminole Tribe. Kirkpatrick is currently
                    serving a 13-month sentence in Federal prison as a result of that conviction.


Former BIA                  Stephen J. Calvin, former BIA Contracting Officer, his son-in-law, Anthony
Contracting        L. Dohi, former BIA contractor, and Dohi Industries were indicted by a Federal
Officer and        grand jury in the District of New Mexico on numerous crimes including mail fraud
Son-in-Law         and false claims. According to the 10-count indictment, Calvin used his position at
Charged in         BIA to award three contracts to Dohi and his company, Dohi Industries, by
Fraud              circumventing proper bidding and bonding requirements and providing confidential
Investigation      pricing information. Calvin was also charged with criminal conflict of interest. Our
                              Computer Forensics Unit was instrumental in discovering documentary
                              evidence on Calvin's assigned BIA computer, which the indictment
                              alleges Calvin used to generate fictitious documents purporting to show
                              that Dohi was bonded to undertake Federal construction projects. The
                              indictment alleges that Calvin prepared false progress payment requests
                              of nearly $147,000 on contracts valued at approximately $681,000. An
                              overpass, constructed by Dohi Industries, built using erroneous
                              specifications, had to be completely demolished and rebuilt. The
                              demolition and new construction cost the BIA nearly a million additional
                              dollars. Trials are pending for Calvin and Dohi.

       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                  8
                                              Significant Audit Activities and Investigations
                                                           Bureau of Indian Affairs
Former Kiowa               Phillip C. “Yogie” Bread, former Vice Chairman of the Kiowa Tribe of
Tribe Vice        Oklahoma, was indicted by a Federal grand jury in the Western District of
                  Oklahoma on charges of fraud and accepting bribes. The 11-count indictment
Chairman
                  alleges that Bread held his elected office with the Kiowa Tribe while actively
Indicted on       employed with the Oklahoma Department of Commerce as the Director of Tribal
Bribery           Assistance, and, as such, abused both positions by accepting nearly $12,000 in
Charges           bribes from various companies in exchange for business opportunities with
                  Oklahoma Indian tribes, including the Kiowa Tribe. Consequently, Bread allegedly
                  fraudulently deprived the citizens of Oklahoma of their right to honest services by
                  accepting money from companies seeking to do business with Oklahoma Indian
                  tribes while being paid for that same work by the state Commerce Department.
                  Bread has previously received national and international recognition for his
                  involvement in promoting American Indian Culture and his work on such projects
                  as consultant for the Academy Award winning film “Dances With Wolves.” Bread
                  resigned from the Oklahoma Department of Commerce and is currently awaiting
                  trial.



Five Officials             In indictments returned by a Federal grand jury in the District of North
of the Turtle     Dakota, five officials of the Turtle Mountain Band of Chippewa Indians (TMBCI)
                  were accused of various crimes, including conspiracy, theft, money laundering,
Mountain
                  witness tampering, and perjury. This is an ongoing joint investigation by the OIG,
Band of           FBI, and IRS Criminal Investigation Division into a series of fraudulent activities by
Chippewa          current and former officials of the TMBCI. At the center of some of the charges
Indians           listed below is an elaborate fraudulent billing scheme in which Raphael DeCoteau,
Indicted          then tribal chairman, in concert with other tribal officials and members, allegedly
                  arranged to donate an old dilapidated school bus garage belonging to the tribe to
                  another tribal business entity and then leased the building back to yet another tribal
                  entity. In the process, excessive and exorbitant rents were paid and deposited into
                  bank accounts from which the conspirators siphoned the stolen funds.

                               • Raphael DeCoteau, former Tribal Chairman, TMBCI, was charged
                                 in a five-count indictment of conspiracy and theft related to various
                                 schemes to defraud the TMBCI. The indictment alleges that
                                 DeCoteau, in concert with another TMBCI official, misapplied
                                 more than $110,000 in Federal and tribal funds by executing, and
                                 making payments on, an inflated and unnecessary lease between
                                 two TMBCI-owned businesses, ostensibly to store sensitive
                                 documents. Lease payments and other alleged expenses were then
                                 allegedly siphoned from one of the business bank accounts in which
                                 DeCoteau was a signatory and used the money for his personal
                                 benefit.

       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                9
Significant Audit Activities and Investigations

Bureau of Indian Affairs
Five Officials of the          • Raphael DeCoteau was also charged in a separate two-count
Turtle Mountain
Band of Chippewa
                                 indictment with the misapplication of $7,300 in tribal funds, which
Indians Indicted                 he used to purchase approximately 15 acres of land for his family
(continued)                      members. According to the indictment, DeCoteau attempted to
                                 conceal his theft by recording the expense as “business grants.” In
                                 addition, DeCoteau was charged with witness tampering after,
                                 according to the indictment, DeCoteau attempted to intimidate and
                                 induce a witness to change and withhold testimony regarding the
                                 details of the sale of his property to DeCoteau’s family. Trial is
                                 pending.

                               • Ronald S. Morin, Chief Executive Officer (CEO) of TSI, Board of
                                 Directors and Contract Administrator of Uniband, Chairman of
                                 Belcourt/Dunseith ATA Black Belt Academy Board of Directors,
                                 (all tribally-owned and controlled businesses) was charged along
                                 with DeCoteau as a conspirator in the five-count indictment. Morin
                                 was arrested and is awaiting trial.

                               • Douglas J. Delorme, a current TMBCI Councilman, was indicted
                                 on charges of theft from an Indian tribal organization and witness
                                 tampering. In the five-count indictment, Delorme is alleged to have
                                 provided a tribal check to Kurt Lilley for $5,000 on the condition
                                 that Lilley return a portion of the money to Delorme. The
                                 indictment also charges Delorme with suborning a false and material
                                 declaration and intimidating and attempting to induce Lilley to
                                 change and withhold testimony regarding his receipt of the money
                                 from the agent investigating the theft. In addition, the indictment
                                 alleges that Delorme embezzled another $3,800 of tribal funds by
                                 issuing TMBCI checks to repay personal loans. Delorme was
                                 arrested and is awaiting trial.

                               • Kurt S. Lilley, a material witness in this investigation, was charged in
                                 a one-count indictment with perjury in connection with material false
                                 statements he made under oath before a Federal grand jury, which
                                 contradicted previous statements he had made to investigating
                                 agents about one of the bogus financial transactions. Lilley was
                                 arrested and is awaiting trial.

                               • Raymond Poitra, former CEO of Uniband Inc., was indicted on
                                 seven counts including theft, money laundering, and criminal asset



          Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               10
                                                    Significant Audit Activities and Investigations

                                                                 Bureau of Indian Affairs
Five Officials of the                forfeiture in connection with a scheme to defraud Uniband, a TMBCI
Turtle Mountain                      owned and controlled business that provides data entry service costing
Band of Chippewa
Indians Indicted
                                     nearly $300,000. The indictment alleges that Poitra committed a series
(continued)                          of complex criminal acts in his official capacity as CEO of Uniband.
                                     The scheme to defraud both Uniband and TMBCI was allegedly
                                     accomplished, in part, through the submission of fictitious, fraudulent,
                                     inflated, or double-billed invoices related to a series of nominee
                                     companies established by Poitra as mediums to divert Uniband monies
                                     for his own personal use. Poitra was arrested and is awaiting trial.


                                 Crow Tribal Chairman Clifford G. BirdinGround was indicted by a Federal
                        grand jury in Billings, Montana, on charges of conspiracy, bribery, and theft in
Tribal                  connection with a $559,000 car scheme that allowed tribal members to acquire
Chairman                late-model vehicles using funds belonging to the tribe. The indictment names
Resigned                BirdinGround, Homestead Hyundai Subaru of Billings, Wayne Kimmet, who owned
                        the dealership at the time, and Terri Lyn Braun, a sales associate for Homestead.
Following
                        The six-count indictment describes a vehicle-swapping scheme that began less than
Indictment in           two weeks after BirdinGround took office, when he began trading vehicles owned
Vehicle-                by the tribe to help his friends and relatives buy vehicles for their own personal use.
Swapping                At the center of the scheme are 10 tribally-owned vehicles that, according to the
Scheme                  indictment, BirdinGround signed over to Homestead. Kimmet then credited the
                        tribe in an equity account with $62,700. BirdinGround’s friends and family used the
                        money to make down payments on personal vehicles. Braun is also accused of
                        giving money and other gifts to BirdinGround for arranging the purchase of
                        $559,000 worth of personal vehicles. BirdinGround is also accused of using
                        $26,944 from the Little Big Horn Casino to purchase a vehicle for the casino.
                        BirdinGround then traded the vehicle in to Homestead for $18,000, which
                        BirdinGround used, in part, to pay for repairs on his personal vehicles, the
                        indictment stated.

                                 A second indictment charged BirdinGround, his brother, Alexander R.
                        BirdinGround, Kimmet, and Homestead with conspiracy and theft from an Indian
                        Tribal organization in connection with the purchase of vehicles using tribal funds.
                        BirdinGround, who resigned following his indictments, is the third Crow tribal
                        chairman in a row to face Federal indictments. Trials are pending. The following
                        details the results to date in this investigation:

                                     • Clifford G. BirdinGround, former tribal chairman, Crow Tribe of
                                       Indians, was charged with conspiracy, theft from an Indian tribal




          Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                     11
Significant Audit Activities and Investigations
Bureau of Indian Affairs
Tribal Chairman                         organization, theft from an organization receiving Federal funds,
Resigned Following
                                        bribery involving an organization receiving Federal funds, and theft
Indictment in Vehicle-
Swapping Scheme                         from an Indian gaming establishment.
(continued)                          • Alexander R. BirdinGround, brother of Clifford BirdinGround, was
                                       charged with conspiracy and theft from an Indian tribal organization.
                                     • Wayne Kimmet, former owner, Homestead Hyundai Subaru, was
                                       charged with conspiracy, theft from an Indian tribal organization,
                                       theft from an organization receiving Federal funds, and aiding and
                                       abetting.
                                     • Terri Lyn Braun, former sales associate, Homestead Hyundai
                                       Subaru, was charged with conspiracy, theft from an Indian tribal
                                       organization, theft from an organization receiving Federal funds, and
                                       bribery involving an organization receiving Federal funds.
                                     • Homestead Hyundai Subaru of Billings was charged with
                                       conspiracy, theft from an Indian tribal organization, theft from an
                                       organization receiving Federal funds, bribery involving an
                                       organization receiving Federal funds, and aiding and abetting.


“Operation                        Charles C. Dillon, a BIA supervisor for the Crow Agency Facilities
Card Trix”               Management Branch; Emmett Old Bull, an accounting technician at the Facilities
                         Management Branch; three Health and Human Services (HHS), Indian Health
Investigation
                         Service employees; and two businessmen were indicted by a Federal grand jury in
Yields                   Montana in five separate indictments on charges of conspiracy, bribery, wire fraud,
Indictment               false claims, and false statements in connection with a scheme to defraud the
of Seven                 government by misusing Federal credit cards and accepting kickbacks. Others
Individuals              charged in the indictments include Kirm G. Kath, salesman and co-owner of JJ&K
                         Enterprises and sales representative for West Lite Corporation, and David D.
                         Bauman, vice president of Pro Tech Mechanical. According to the indictments,
                         Dillon and Old Bull solicited and received payments from Kath and Bauman in
                         exchange for using a Government credit card to purchase products or services from
                         West Lite and Pro Tech. Dillon structured the purchases, which totaled $133,000,
                         into amounts smaller than the $2,500 limit to avoid having to get BIA approval – in
                         effect, creating a practical monopoly for the companies, according to the
                         indictments. Old Bull allegedly used his BIA credit card to purchase $68,230 from
                         Pro Tech and accepted kickbacks in return. The three Indian Health Services
                         employees, Arthur Alden, Gale G. Three Irons, and Keith Reece, are charged with
                         conspiracy to defraud the Government, bribery, false claims against the
                         Government, and wire fraud. Their unauthorized Government credit card purchases
                         from West Lite totaled nearly $200,000 in exchange for receiving payments of
                         nearly $17,000.
          Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                     12
                                                 Significant Audit Activities and Investigations
                                                             Bureau of Indian Affairs
“Operation Card Trix”         Members of our Investigations and Audits officies were joined by the
Investigation Yields    HHS-OIG, HUD-OIG, IRS-CID, and investigators of the U.S. Attorneys office in
Indictment of Seven     Montana. The investigation has yielded the following results:
Individuals
(continued)
                                   • Charles C. Dillon, Supervisor, Facilities Management Branch,
                                     Crow Agency, BIA, Montana, was charged with 16 counts,
                                     including conspiracy to defraud the Government, bribery, false
                                     claims against the Government, wire fraud, employment fraud, and
                                     false statements to the BIA. Dillon was also removed from Federal
                                     service.

                                   • Emmett Old Bull, former BIA Crow Agency maintenance worker,
                                     was indicted on three counts, including conspiracy to commit fraud,
                                     bribery, and wire fraud.

                                   • Kirm G. Kath, salesman and co-owner of JJ&K Enterprises and
                                     sales representative for West Lite Corporation, was named in three
                                     of the indictments and is facing 12 counts of conspiracy to commit
                                     fraud, bribery, wire fraud, and false claims against the Government.

                                   • David D. Bauman, vice president of Pro Tech Mechanical, Billings,
                                     Montana, was indicted on five counts, including conspiracy to
                                     commit fraud, bribery, wire fraud, and false claims against the
                                     Government. Bauman recently pled guilty to bribing BIA
                                     employees to induce them to hire his company for repair and
                                     maintenance work. He also pled guilty to being an accessory after
                                     the fact for helping Dillon cover his purported criminal activity.

                                   • Arthur Alden, a maintenance leader for the Facilities Maintenance
                                     Branch, Indian Health Service, HHS, was indicted on four counts,
                                     including conspiracy to defraud the Government, bribery, wire
                                     fraud, and false claims against the Government.

                                   • Gale G. Three Irons, Hardin supply supervisor, Indian Health
                                     Service, HHS, was indicted on four counts, including conspiracy to
                                     defraud the Government, bribery, wire fraud, and false claims
                                     against the Government.

                                   • Keith Reece, maintenance mechanic at the Lodge Grass Health
                                     Center, Indian Health Service, HHS, was indicted on four counts,
                                     including conspiracy to defraud the Government, bribery, wire
                                     fraud, and false claims against the Government.
         Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                  13
Significant Audit Activities and Investigations
Bureau of Indian Affairs
Department                  At the request of the Securities Division of the Arizona Corporation
Debars              Commission, the OIG assisted in an investigation that led to an Arizona state
                    conviction on charges that James Ashpole, a surety bond provider, sold stock in
Imprisoned
                    mining operations that did not exist. Following that investigation, the OIG
Surety Bond         recommended debarment of Ashpole. As a result, the Office of Acquisition and
Broker              Property Management debarred Ashpole from acting as a surety under Federal
                    transactions and from participation in Federal government contracts for a period of
                    12 years, the longest period ever imposed by the Department. According to the
                    debarment, Ashpole falsified documents he submitted to the Bureau of Land
                    Management (BLM) by selling valueless surety bonds to businesses seeking
                    contracts with the BIA. Specifically, Ashpole submitted bid bonds on four BIA
                    contract solicitations that pledged more than $30 million in land assets. In fact, the
                    BLM actually owned the land surface rights Ashpole pledged, and the mining claims
                    he pledged were worthless. Ashpole is currently serving nine years of imprisonment
                    for securities fraud related to the Arizona state conviction.



Indian School              Geraldine Arviso, a bookkeeper with the Wingate Board of Education,
Bookkeeper         Office of Indian Education Programs, BIA, who previously pleaded guilty to
                   charges that she embezzled more than $66,000 of Federal monies intended for
Sentenced
                   Wingate High School, was sentenced in U.S. District Court of New Mexico to 6
                   months of home detention, 4 years of probation, and to pay restitution in the amount
                   of $65,761. Arviso’s indictment, reported in our April 2002 Semiannual Report,
                   detailed that between 1997 and 2001 she wrote and cashed checks from the
                   Wingate High School’s business account and used the money for personal gain.


Additional                 The Tribal Loan Program of the Lac Vieux Desert Band of Lake Superior
Results in         Chippewa Indians of Watersmeet, Michigan, made over a million dollars in loans to
                   166 individuals, half of whom defaulted on the loans. Our April 2002 Semiannual
Abused Tribal
                   Report detailed, in part, the indictment and plea agreement of the former tribal
Loan Program       chairman and the indictments of the former tribal receptionist and payroll clerk.
                   Since then, our investigation has produced the following additional results:

                                • John McGeshick, Sr., former Tribal Chairman, was sentenced to 12
                                  months of imprisonment, 3 years of supervised release, and ordered
                                  to pay restitution in the amount of $256,258.




       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 14
                                                      Significant Audit Activities and Investigations
                                                                  Bureau of Indian Affairs
Additional                             • Susan Van Zile-McGeshick, former tribal receptionist, pleaded
Results in Abused Tribal                 guilty to one count of theft and was sentenced to 6 months of
Loan Program                             imprisonment and ordered to pay restitution in the amount of
(continued)
                                         $60,357.

                                       • Rhea Reno, former tribal payroll clerk, pleaded guilty to theft and is
                                         scheduled to be sentenced at the end of the year.


Members                             Three family members previously charged with passing numerous bad
Convicted of               checks at Harrah’s Cherokee Tribal Casino pleaded guilty to charges of theft from
                           an Indian gaming institution and were sentenced in the Western District of North
Theft from
                           Carolina for their actions. Cindy Turner, who used her position as a license
Harrah’s                   examiner for the South Carolina Department of Public Safety to obtain fictitious
Cherokee                   drivers licenses and identification cards, which her father and uncle used in the
Tribal Casino              scheme to cash the fraudulent checks, was sentenced to 5 years of probation and
                           ordered to pay restitution in the amount of $3,500. Luther Turner, Jr., was
                           sentenced to 5 years of probation and ordered to pay restitution in the amount of
                           $2,500, and James Turner was sentenced to 30 days of house arrest, 5 years of
                           probation, and ordered to pay restitution in the amount of $9,000. As reported in
                           our April 2002 Semiannual Report, the three cashed more than 20 fraudulent
                           checks totaling $15,000 at the North Carolina casino. The three used fake
                           identification provided by Cindy Turner to open the bank accounts and obtain the
                           checks.



Father                             Daniel Roller, a non-Indian, fraudulently cashed Individual Indian Money
Sentenced in               lease income checks issued to his minor child, an enrolled member of the Fort Peck
                           Tribe of Indians in Montana, and was sentenced for his actions to 36 months
Theft of
                           supervised probation and payment of restitution in the amount of $13,592. From
Daughter’s                 1992 through 1998, Roller negotiated nearly $15,000 in checks issued for the
Trust Fund                 benefit of his minor daughter and misappropriated the money for his own personal
Money                      benefit. Roller’s indictment by a Federal grand jury in Montana on charges of mail
                           fraud and theft of Government funds, and subsequent guilty plea to mail fraud, were
                           reported in our April 2002 Semiannual Report.




          Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                       15
Significant Audit Activities and Investigations

Bureau of Indian Affairs

Former                     Gerald T. Burd, former Executive Director and Financial Controller for the
Haskell            Haskell Foundation, was administratively debarred for a period of three years and
Foundation         five months by the DOI Office of Acquisition and Property Management. This
                   action followed his conviction for embezzlement of grant and contract funds
Director           provided to the Haskell Foundation by the BIA Office of Indian Education
Debarred in        Programs, in part to be used for improvement studies of BIA elementary and
Embezzlement       secondary schools. As we reported in our October 2001 Semiannual Report, Burd
Scheme             was sentenced in U.S. District Court for the District of Kansas to 12 months of
                   imprisonment, 36 months of supervised release, and to pay restitution in the amount
                   of $103,980. The Haskell Foundation is a non-profit organization formed to
                   administer gifts and donations to the Haskell Indian University, both of Lawrence,
                   Kansas. This was a joint investigation with the OIG, Department of Education, and
                   FBI.



Two Former                 Two former BIA employees pleaded guilty in the U.S. District of Arizona to
BIA                charges of skimming more than $60,000 from Indian Education programs. Rosalie
                   B. Yazzie, former employee of the Seba Dalkai Boarding School, pled guilty to 24
Employees
                   counts of false statements and agreed to pay restitution in the amount of $57,401.
Guilty of          Alberta J. Bitsoi, former employee of the BIA’s Office of Indian Education
Indian             Programs, pled guilty to two counts of false statements and agreed to pay restitution
Education          in the amount of $21,700. For more than three years, Yazzie and Bitsoi
Fraud              systematically defrauded the Government by submitting false vouchers for stipend
                   payments. Stipend payments are made to BIA employees for work that is
                   performed above and beyond their tour of duty. Typically, these payments are
                   derived from coaching a sport or sponsoring one of the school’s academic or social
                   programs. Neither woman did work to earn the stipends. As we reported in our
                   April 2002 Semiannual Report, Yazzie was originally indicted on charges of taking
                   more than $39,000 and Bitsoi was charged with taking nearly $22,000. Sentencing
                   is pending for both women.




       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                16
                                            Significant Audit Activities and Investigations
                                                Bureau of Land Management
                          Barry James, a paleontologist and co-owner of Prehistoric Journeys, who
                 was accused of excavating a complete Allosaurus from BLM lands in Utah, then
                 selling and exporting the fossil to a buyer in Japan, pleaded guilty to a State of Utah
                 criminal charge of receiving stolen property. This joint OIG and BLM investigation
                 revealed that the fossil, which was valued at $500,000, was removed from Federal
                 land and transported to Santa Barbara, California, then sold for $400,000.
Paleontologist   Concurrently, the U.S. District Court in Utah filed a civil complaint against James,
Sentenced in     his wife, April R. James, a fossil preparatory, and their company, Prehistoric
Allosaurus       Journeys, on charges of statutory theft, conversion, and unjust enrichment.
                 Prehistoric Journeys started 13 years ago in Pennsylvania, where the James' have
Fossil Theft
                 assembled more than 130 real and replica skeletons of dinosaurs and prehistoric
Case             mammals, including a Giganotosaurus, stretching 48 feet from tip to tail, a carnivore
                 that dwarfs even the renowned Tyrannosaurus Rex. Barry James was sentenced in
                 State court to one year of probation and to pay restitution in the amount of
                 $50,000, concurrent with a U.S. District Court civil judgment of $50,000.



BLM Needs to             We reviewed the Bureau of Land Management's 2000 annual performance
Improve          report prepared in compliance with the Government Performance and Results Act
                 (GPRA) and are recommending that BLM: (1) revise some of its performance
Development
                 goals and measures and (2) ensure data used to report BLM performance is
and Reporting    accurate. Specifically, we found:
of GPRA
Goals and                     • Performance goals for health and safety are inadequate.
                                Officials can report that a facility is in good condition for health
Measures
                                and safety if there are four or less "uncorrected high priority
                                findings." These findings can include anything from uncovered
                                electrical boxes with exposed wires to oxidizing materials stored
                                with combustible liquids. We believe the number of uncorrected
                                high priority findings should be zero in order for the facility to be in
                                "good condition."

                              • Managers lack control over achieving results. BLM's
                                performance in cleaning up hazardous materials depends on the
                                number of cleanups completed. However, BLM cannot clean
                                up unless the public dumps hazardous materials. If BLM's
                                target number of cleanups is 30 and the public only dumps 20
                                times, BLM will not meet its goal, even if the threat to health
                                and safety has been decreased.

                                 Click Here for Full Report

      Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                              17
Significant Audit Activities and Investigations
Bureau of Land Management
BLM Needs to                    • Reporting of abandoned mines and hazardous materials is
Improve                           inaccurate. State field offices underreported and overreported
Development and
reporting of GPRA
                                  their correction of physical safety hazards at abandoned mine sites
Goals and Measures                and over-reported cleanup accomplishments at hazardous material
(continued)                       sites.
                              We believe the overall lack of experience with GPRA requirements
                     contributed to BLM's inappropriate performance goals and measures. BLM issued
                     an Instruction Memorandum on September 23, 2002 to implement corrective action
                     related to several of our recommendations.




         Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               18
                                            Significant Audit Activities and Investigations
                                                           Bureau of Reclamation
                         A private development company donated land to the city of Tooele, Utah,
                 for a wastewater treatment plant, golf course storage ponds, and a sewer
                 transmission line. The Bureau of Reclamation and the Economic Development
                 Administration provided funds, totaling $20,857,457, for these specific projects.

                          The developer, in return for donating the land, acquired a source of
                 irrigation water for the golf course and housing development in a region where water
OIG Questions    supply is short. The developer also received the water for a lower price. Further,
Costs            the storage ponds are an integral part of the landscaping of the golf course and
                 enhance the entire development, making the area more desirable to potential
                 homeowners. As a result of the transaction, the city secured a customer for the sale
                 of its water and receives the benefit of an increased tax base from homeowners.

                          Because both the developer and the city benefited from the land donation,
                 the city of Tooele and the developer are, in effect, business partners. As such, we
                 question the amount of money claimed by the city for the land.

                          Additionally, of two waterlines constructed for the water treatment plant,
                 one transports water to the private company's housing development -- not the plant
                 -- and the other will eventually serve other customers as well as the plant. In our
                 opinion, the treatment plant should only be charged for water it uses, with the
                 remaining costs being absorbed by other current and future users.

                         BOR agreed with our findings and is in the process of resolving the cost
                 exceptions with the city of Tooele.


Natural                   Steven M. Thompson, natural resources specialist, BOR, Casper,
Resource         Wyoming, was sentenced following a guilty plea to solicitation of a gratuity to one
                 year of probation and fined $500. Thompson also resigned from the BOR. As
Specialist
                 reported in our April 2002 Semiannual Report, Thompson was indicted by a
Sentenced in     Federal grand jury in the District of Wyoming on a charge that he solicited a bribe
Bribe Case       from a potential bidder on a Bureau contract. The indictment alleged that
                 in exchange for $500, Thompson agreed to reveal the amount the Bureau budgeted
                 for the contract project to a potential bidder.




      Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                              19
Significant Audit Activities and Investigations
Bureau of Reclamation

Transfer of                 BOR’s agreements with three California Water Authorities have proved
Water Project      unsound. The agreements, designated the Water Authorities as “fiscal agents” to
                   collect Federal revenues for water delivered by the Central Valley Project (CVP).
Responsibilities
                   Both current and past administrations believed that the CVP was a partnership
Places Federal     between the Federal Government and the water users and, as such, responsibility
Revenues at        for the CVP should be transferred to local control to the extent possible. The
Risk               agreements, however, created an adversarial relationship between BOR and the
                   Water Authorities and significantly increased the risk of loss or misappropriation of
                   the over $200 million of Federal revenues collected to date. By failing to clearly
                   define the roles and responsibilities of each of the parties to the agreements, BOR,
                   in effect, lost control of Federal revenues and did not ensure that the Water
                   Authorities, acting as BOR’s fiscal agent, had assumed control. The adversarial
                   relationship between BOR and the Water Authorities was clearly demonstrated by
                   the Water Authorities’ refusal to comply with BOR’s request to remit Federal
                   revenues to the U.S. Treasury within 3 business days of receipt and to stop using
                   the revenues to offset unpaid bills owed the Authorities by water users. The
                   Authorities continued the practice of offsetting even after it was found to be illegal
                   by the Office of the Solicitor.

                           BOR agreed with our recommendations and took immediate action to
                   ensure that CVP water users complied with Federal law, as outlined by the Field
                   Solicitor, amend the agreements with the Water Authorities to terminate the fiscal
                   agent designation and re-establish financial mechanisms allowing the water users to
                   directly pay BOR for water use.

                    Click Here for Full Report




       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 20
                                             Significant Audit Activities and Investigations
                                                                               Insular Areas
                          A road construction company owner was sentenced following a lengthy
                 investigation into public corruption in the Commonwealth of the Northern Mariana
                 Islands (CNMI). Candido Castro, owner of Castro & Associates, pleaded guilty
                 and was sentenced in U.S. District Court, Saipan, to 8 months of imprisonment, 3
                 years of probation, and to pay restitution in the amount of $100,000 in connection
Saipan           with bribes he paid to Herman Manglona relating to contracts with the CNMI
Businessmen      government. Manglona, then CNMI Senator, pleaded guilty to bribery and
Sentenced in     attempting to corruptly influence a grand juror, resigned from the CNMI Senate,
Bribery          was sentenced to 24 months of imprisonment, and ordered to pay $30,000 in
                 restitution and fines.
Schemes
                         Castro's sentencing was the latest to arise from the continuing joint
                 investigation with the FBI into criminal activities of public officials and businessmen
                 in the CNMI. As reported in our April 2001 Semiannual Report, the former
                 Secretary of Finance, Antonio Cabrera, was convicted of theft of monies from the
                 CNMI government, and was sentenced to 33 months of imprisonment, and was
                 ordered to pay more than $70,000 in restitution and fines.

                         In a separate investigation, the owner of a construction company operating
                 in the CNMI was sentenced in connection with his plea of guilty to charges that he
                 paid $13,500 in bribes to a CNMI Department of Public Works official in
                 exchange for special treatment on contracts his company had with the CNMI
                 government. Epitacio Lumactod, owner of LVP Pacific Development Corporation
                 Saipan, was sentenced in U.S. District Court, Saipan, to 60 months of probation
                 and fined $30,000. Lumactod admitted to the Court that he paid bribes to
                 Leonard Manacop, a former estimator for the Technical Services Division, CNMI
                 Department of Public Works, to expedite progress payments, change orders, and
                 accept substandard materials or materials that did not meet contract specifications.
                 Manacop's sentence was previously reported in our October 2000 Semiannual
                 Report.


Sentencing in              Anthony Dizon, the former Executive Director of the U.S. Virgin Islands
Virgin Islands   Lottery, was sentenced in U.S. District Court for the Virgin Islands to serve 20
                 months of imprisonment, 3 years of supervised release, and to pay restitution in the
Lottery Funds
                 amount of $72,614 following his guilty plea to a charge of wire fraud. As we
Wire Fraud       detailed in our October 2001 Semiannual Report, during the course of an OIG
Scheme           audit, it was discovered that Dizon had embezzled lottery funds totaling $99,102,
                 which he used for personal purposes.




      Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               21
Significant Audit Activities and Investigations
Insular Areas
Serious               Audits of Insular Area programs and activities conducted during this
Financial     reporting  period revealed the continued existence of serious uncorrected
              deficiencies in the management of program monies and grants received from Federal
Management
              departments. Insular Area governments have generally failed to develop and
Challenges    implement standard business practices to account for these monies and ensure that
Continue to   they were spent in a manner that met program and grant goals and requirements.
Exist in      Specifically:
Insular Areas
                                 • The Virgin Islands Department of Health failed to effectively
Click Here for Full Report         administer grants totaling $30.5 million received from the
                                   Department of the Interior's Office of Insular Affairs to construct
                                   health care facilities. We found poor record keeping, the failure to
                                   follow standard procedures for competitive bidding and land
                                   acquisition, and a lack of documentation to support claimed costs.
                                   In fact, transactions for one health clinic that was never completed
                                   were so mismanaged that they could serve as a case study on the
                                   misuse and waste of public funds that can occur when procurement
                                   regulations and procedures are sacrificed in the name of expediency.

                                 • The Guam Department of Mental Health and SubstanceAbuse
Click Here for Full Report         could not adequately account for costs billed under grants totaling
                                   nearly $3 million from the U.S. Department of Health and Human
                                   Services. We identified expenditures totaling $1.5 million that could
                                   not be documented, expenditures of nearly $400,000 used for a
                                   computer system that was never completed, and expenditures of
                                   nearly $150,000 used for services that were not allowed under the
                                   grants.

                                 • The failure to follow standard business practices adversely affected
                                   the ability of the Virgin Islands Department of Public Works to
Click Here for Full Report
                                   effectively administer $25 million in grants from the Federal High
                                   way Administration. Deficiencies in contract administration and
                                   grant management resulted in instances in which competitive bidding
                                   was bypassed, contractors were overpaid, and contracts were
                                   inadequately monitored. Deficiencies similar to those that existed in
                                   the management of contracts under the Federal Highway Grants
                                   existed in the award and administration of $100 million of
                                   professional service contracts issued by the Government of the
                                   Virgin Islands during fiscal years 2000 and 2001.

                             Of the 46 recommendations made in these reports, only 15 were
                     resolved; 20 remain unresolved, and 11 required additional information on actions

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 22
                                                Significant Audit Activities and Investigations
                                                                                 Insular Areas
Serious Financial   to be taken to implement the recommendations. We provided copies of our reports
Management
Challenges
                    to the appropriate Federal agencies, including the Office of Insular Affairs, for
(continued)         follow-up purposes.

                             As indicated in past Semiannual Reports, we have been extremely
                     concerned with the lack of response to recommendations made in our prior audits
                    of the Insular Areas. In the past 6 months we have committed resources to elicit
                    long-overdue responses to past OIG internal audits and to secure single audit
                    reports, which are required from various Insular Area governments. Responses,
                    however, have either been insufficient or not produced at all.

                            To resolve and clear our recommendations, we have been working with a
                    team from the Department's Office of Insular Affairs to focus on audits dealing with
                    DOI funds provided to Insular Area governments. We have also contacted other
                    Federal agencies to determine their response to our audit recommendations
                    concerning their funds. Finally, an Insular Area Field Liaison and staff support have
                    been appointed to assist local Insular Area governments and their components with
                    the development of responses to audit recommendations concerning purely local
                    funds.

                             To assist Insular Area governments with their obligation to contract with
                    independent Certified Public Accountants (CPA), as required by the Single Audit
                    Act, we have conducted a thorough review of the single audits submitted. Not one
                    of the Insular Area governments currently submits a Single Audit with an unqualified
                    opinion from the CPA firm. We will be working with the governments to correct
                    these deficiencies. In some instances, notably the Virgin Islands, American Samoa,
                    and Guam, single audit reports have not been produced or if produced omit such
                    significant information as to render them meaningless. With the approval of the
                    other Federal agencies affected, we have negotiated extended filing dates to enable
                    Insular Area governments to come into compliance with their responsibilities.

                            We are confident that with our capacity building efforts, the local Offices of
                    the Public Auditor for the Insular Area governments can effectively assume the
                    responsibility for auditing purely local funds. We are urging other Federal agencies
                    providing funds to Insular Area governments to become more involved in tracking
                    the uses to which their funds are directed. The Department of State is in the
                    process of negotiating new Compact provisions containing greater accountability
                    requirements with the Federated States of Micronesia and the Republic of the
                    Marshall Islands. When the Compact for the Republic of Palau is renegotiated, we
                    believe similar increased accountability provisions will also be included. These
                    developments will allow us to focus our future Insular Area audits primarily on
                    Department of the Interior funds provided to the Insular Areas.

         Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 23
Significant Audit Activities and Investigations
Minerals Management Service

                            Our audit of a group incentive award program (gainsharing) developed and
                   operated by the Minerals Management Service’s Procurement Operations Branch
                   (GovWorks) determined that the gainsharing program: (1) was not authorized by
                   DOI or MMS, (2) emphasized increasing revenue without regard to cost savings or
                   net results of operations, and (3) the award determination process lacked written
MMS                criteria and, as such, was wholly subjective. In addition, the gainsharing awards
                   were unreasonably high – some GovWorks employees received as much as 47
Gainsharing
                   percent of their salary in awards – particularly when compared to other Federal
Awards             incentive award programs. We also found that GovWorks failed to identify and
Found              recover $377,252 in costs over a 5-year period.
Unreasonably
High                       We recommended that the Assistant Secretary for Land and Minerals
                   Management terminate the gainsharing program and implement procedures to
                   identify and fully recover GovWorks’ costs. The Assistant Secretary for Land and
                   Minerals Management and the Assistant Secretary for Policy, Management and
                   Budget both agreed with these recommendations. Click Here for Full Report



Two Civil                   As a result of an OIG investigation of the largest off-shore crude oil spill
Settlements        since 1969 in the waters off the Santa Barbara County shoreline, Torch Operating
                   Company agreed to pay more than $3 million to settle a civil suit filed in the Central
in California
                   District of California. The spill from Platform Irene, a drilling platform owned and
Crude Oil          operated by Torch, leaked hundreds of barrels of crude oil and contaminated
Spill              several miles of North County shoreline, killing wildlife.

                           The Santa Barbara District Attorney's Office filed a related civil suit that
                   resulted in a $1,000,000 settlement. The complaint criticized Torch's poor safety
                   record and cited 11 incidents on the oil operator's offshore platforms from Jan. 1,
                   1997 through April 12, 1998. According to the lawsuit, no other operator of an
                   offshore platform in the Santa Barbara Channel had equaled this poor safety record,
                   and this mishap could have been significantly reduced if the oil operator had
                   followed safety procedures. The company's employees bypassed pipeline safety
                   devices and restarted shipping pumps despite low-pressure warnings and without
                   inspecting the pipeline, according to the lawsuit. Checking on the cause of the
                   automatic low-pressure shutdown and examining pipeline safety equipment could
                   have greatly reduced the amount of oil leaking from the ruptured 20-inch diameter
                   undersea pipeline between the platform and the shore.

                           The Federal settlement agreement resolved claims of various Federal and
                   state agencies, such as the U.S. Air Force, U.S. Coast Guard, National Pollution
                   Center, Environmental Protection Agency, California Land Commission, and
                   California Coastal Commission.
       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                24
                                               Significant Audit Activities and Investigations
                                                Minerals Management Service
Texaco Settles               Texaco Exploration and Production entered into an administrative settlement
Administrative      with the MMS for more than $650,000 to settle a complaint with MMS based on
                    findings by the OIG. The complaint, which was investigated by the OIG, alleged
Royalty
                    that the company underpaid royalties on gas by improperly deducting certain costs
Underpayment        from the value of the gas for royalty purposes. Our investigation confirmed that the
Case                inappropriate practice by Texaco resulted in paying royalties less than the full
                    market value of the gas.



RIV/RIK --                   At the request of the Department's Deputy Secretary, we assessed two
Two                 methods that the Minerals Management Service uses to collect royalties on Federal
                    oil and gas leases. We reviewed Royalty in Kind (RIK) -- accepting oil and gas for
Processes for
                    payment - and Royalty in Value (RIV) -- accepting money. We concluded that
Collecting          when MMS accepted money for payment rather than oil and gas, the process was
Oil and Gas         more vulnerable to underreporting because MMS must rely on the lessee to report
Royalties           the value. A series of audits and investigations over a 20-year period found $2
                    billion underreported using RIV. We found instances, however, where taking
                    Royalties in Value would be preferable, such as when transportation costs are high
                    and volume is low. We also found several opportunities for MMS to improve its
                    RIK process, such as implementing independent reviews of its process for manually
                    entering data.

                           We presented these results to the Deputy Secretary, the Assistant Secretary
                    for Land and Minerals Management, and the Director of MMS, all of whom
                    concurred with our findings.  Click Here for Full Report



Gas Plant        In a joint effort with the Wyoming state auditors and Bureau of Land
Underpays    Management    inspectors, we reviewed the Kinder Morgan Gas Plant in Douglas,
MMS $172,000 Wyoming. We found that although the plant generally had effective controls for
                    measuring gas, it was not taking into account certain factors when determining gas
                    value, therefore resulting in underpayments to the Minerals Management Service
                    (MMS) totaling $172,000.

                          Representatives from the gas plant, the State of Wyoming Department of
                    Audit, and the Minerals Management Service (MMS) are working out a settlement
                    to resolve the underpaid royalties. The gas plant has agreed to correct its process
                    of determining the value of gas.




        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 25
Significant Audit Activities and Investigations
National Park Service
                               Black Canyon Inc., a former river rafting concessionaire contracted by the
                      NPS to operate on the Colorado River, was debarred for a period of 3 years
                      following its conviction for underreporting nearly $1.5 million in gross revenues on
                      its financial reports. The corporation president, Larry Opfer; treasurer, Tim
                      Richner; and secretary, Ronald Opfer, were also debarred for a period of three
Former NPS            years. Black Canyon entered into a contract with the NPS in 1988, which gave it
                      exclusive rights to operate tours from the Hoover Dam in Nevada to Willow Beach
River Rafting
                      in Arizona. Under the terms of the contract, which NPS has since terminated,
Concessionaire        Black Canyon was required to pay a franchise fee to NPS based on Black
Sentenced in          Canyon's gross revenue receipts. Black Canyon was sentenced in the District
Underreporting        Court of Nevada to 60 months of probation and ordered to pay $116,715 in
Scam                  restitution after pleading guilty to making false statements to the NPS, which we
                      reported in our April 2001 Semiannual Report.


Extradition              Gregory E. G. Thomlison of Ontario, Canada, was indicted on 67 counts of
Sought in a $3.5 wire fraud, money laundering, theft of government property, and illegal transfer of
Million Fraud    bankruptcy assets by a Federal grand jury in the Southern District of California.
                 According to the indictment, Thomlison, owner/president of Destinet Services
Case
                      Corporation, defrauded his former clients, including the NPS and the California
                      State Department of Parks and Recreation. Destinet Services contracted with
                      clients to manage reservations and ticketing for campgrounds, sports venues, and
                      other entertainment ventures. Thomlison is accused of collecting reservation and
                      ticketing fees from 1994 to 1997 and illegally transferring $3.5 million to bank
                      accounts of shell companies in Canada that he controlled. Thomlison allegedly used
                      the funds to support his lifestyle and his other personal business interests. Following
                      his indictment, a "no-bail" warrant was issued for Thomlison's arrest, and extradition
                      proceedings are underway. This continuing case is a joint effort of our Audits and
                      Investigations staff.




        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                   26
                                            Significant Audit Activities and Investigations
                                                             National Park Service

NPS Must                We reviewed how the National Park Service oversees funds for
Resolve         improvements to concession facilities (restaurants, gift shops, hotels, etc.). An older
Concession      system authorizes parks to monitor the use of funds but requires concessioners to
                contract for and oversee projects. The newer system requires the park to perform
Improvement
                both responsibilities. We found weaknesses in both systems.
Issues
                         In 1965, Congress created special accounts in which concessioners are
                required to deposit a percentage of their earnings for repairs and improvements to
                their facilities. The parks have oversight of the accounts, but the concessioners are
                responsible for planning and contracting the projects as well as ensuring they reach
                completion.

                         In 1998, Congress passed new legislation that put the responsibility of
                concession improvements in the hands of the parks, authorizing them to collect
                franchise fees from concessioners. Under this legislation, the parks are responsible
                for managing funds, overseeing projects, and issuing contracts, among other duties.
                The parks still have oversight of the special accounts that existed before the
                legislation, but they now have a new set of responsibilities for contracts after 1998.

                        These two systems currently in use have shortfalls. Under the original
                system, there is potential for misusing funds because NPS does not consistently
                review all of the documentation necessary to ensure that expenditures were
                appropriate. There are deficiencies in the new system as well. NPS lacks planning
                for projects, has a contract negotiation backlog, lacks contracting resources, and
                has a funding shortfall. These new obstacles could significantly delay much-needed
                improvements to visitor facilities.

                        NPS has hired an outside consultant to address these concession issues.
                We believe it is essential that planning to resolve these uncertainties be initiated
                immediately to minimize any negative impact on services for park visitors.
                Additionally, parks must improve account oversight and ensure that concessioners
                are using funds for approved purposes.




     Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                              27
Significant Audit Activities and Investigations

National Park Service

Fee Demo                    Congress authorized the Recreational Fee Demonstration Program (Fee
                   Demo) in 1996 to look at the feasibility of charging increased fees at recreation sites
Program Has
                   to enhance visitor enjoyment and protect resources. The Program appears to be
Proved             working at the sites we visted. Both agencies have used the additional revenues
Beneficial, but    collected to meet critical maintenance needs and undertake projects to increase
Improvements       visitor enjoyment and resource protection. As of September 30, 2000, NPS Fee
Could Be Made      Demo revenues totaled about $459 million and BLM revenues about $17 million.

                           We believe, however, that both agencies could enhance the benefits of their
                   programs in the time remaining for implementation. Congress has extended the Fee
                   Demo Program through fiscal year 2004 and given the participating agencies
                   through fiscal year 2007 to spend the revenues. Our primary concern is that NPS
                   improve the completion rate of its Fee Demo Projects. In our opinion, public
                   acceptance of the Fee Demo Program depends on the timely completion of
                   on-the-ground improvements. As of September 30, 2000, however, the 17 parks
                   we visited had completed only about 11 percent of their approved projects. Both
                   NPS and BLM could enhance their programs' benefits by improving Fee Demo
                   Program accountability and ensuring the appropriate use of Fee Demo Revenues.
                   NPS and BLM concurred with our recommendations. We consider the
                   recommendations to BLM resolved and implemented and have requested additional
                   information from the NPS.
                                                Click Here for Full Report




       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                28
                                             Significant Audit Activities and Investigations
           Office of the Special Trustee for American Indians


                          The independent certified public accounting firm of KPMG LLP, under
                  contract with the OST, rendered qualified opinions on the fiscal year 2001 Tribal
                  and Other Trust Funds and Individual Indian Monies Trust Funds financial
                  statements of the Office of the Special Trustee for American Indians. The opinions
Opinions on       were qualified because: (1) cash balances reflected in the financial statements were
Office of the     materially greater than balances reported by the U.S. Treasury, (2) inadequacies in
Special Trustee   certain Department of the Interior accounting systems made it impractical to extend
for American      auditing procedures to satisfy auditors regarding the fairness of Trust Fund balances,
                  and (3) certain parties for whom the Office of Trust Funds Management (OTFM)
Indians           holds monetary assets in trust do not agree with the balances recorded by the
Qualified         OTFM and have filed or are expected to file claims against the U.S. Government.




      Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               29
Significant Audit Activities and Investigations
U.S. Fish and Wildlife Service
                            Our reviews of U.S. Fish and Wildlife Service (FWS) sport fish and wildlife
                   restoration program grants, totaling about $135 million for seven states (Delaware,
                   Maine, New Mexico, North Dakota, Oklahoma, South Carolina, and Virginia),
                   identified questioned costs and other significant issues for four states, as follows:

                                • Oklahoma and South Carolina claimed costs of $738,000 and
                                  $56,000, respectively, that were ineligible for reimbursement.
Questionable
Grant                           • Oklahoma and New Mexico did not offset grant costs of
                                  $1.6 million and $37,000, respectively, with revenues that were
Reimbursements                    earned from commercial activities on lands purchased or managed
Identified                        with grant funds.

                                • The accounting systems for three of the states had the following
                                  deficiencies: Oklahoma's system did not adequately account for
                                  hunting and fishing license revenues, which by law must be used for
                                  the administration of state fish and wildlife agencies; South
                                  Carolina's system did not accurately account for labor costs
                                  charged to grants because the grantee charged budgeted rather than
                                  actual costs; and North Dakota's system did not equitably allocate
                                  employee benefits, which may have resulted in over charges to the
                                  grants.


                               Click Here for Full Report

          Delaware, Maine, New Mexico, North Dakota, Oklahoma, South Carolina, and Virginia




       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                30
                                             Significant Audit Activities and Investigations
                                                            U.S. Geological Survey
                          Timothy E. Ruble, who was terminated from his position as a U.S.
                 Geological Survey (USGS) research geologist in Denver, Colorado, for using his
                 USGS computer to access and download child pornography depicting images of
                 the sexual exploitation of small children, was sentenced to 41 months of
USGS             imprisonment and 36 months of probation. As we reported in our April 2002
Employee         Semiannual Report, Ruble was indicted by a Federal grand jury on 10 counts of
Debarred         receipt and possession of child pornography and one count of criminal forfeiture for
Following        receiving child pornography that had been transported in interstate or foreign
                 commerce by use of a computer. Following his removal from his Federal position,
Sentencing in    the OIG learned of Ruble's attempt to work with the USGS as an employee of a
Child            contractor. Our office notified the DOI Office of Acquisition and Property
Pornography      Management, which immediately suspended him from participating in Federal
Case             contracts or grants. Following the suspension, Ruble was debarred from
                 participating in Federal contract transactions for a period of six years, four months.



Independent              The independent certified public accounting firm of KPMG LLP, under
CPA Firm         contract with the OIG, could not render an opinion on the fiscal year 2001
                 consolidated financial statements of the USGS because it had not maintained its
was Unable to
                 accounting records for fiscal year 2001 and could not complete the extensive
Render an        reconciliations and adjustments required before the end of the audit period.
Opinion
                          KPMG identified nine material weaknesses in internal controls over financial
                 reporting: (1) information technology systems lacked adequate general controls, (2)
                 the organizational structure of financial management needed improvement, (3)
                 proprietary and budgetary accounts were not reconciled, (4) account analysis and
                 adjustments were not documented or performed timely, (5) fund balance with
                 Treasury had not been reconciled, (6) suspense account balances were not
                 correctly recorded or timely reconciled, (7) the revenue cycle lacked adequate
                 policies and procedures, (8) inventory was not accounted for in compliance with
                 Federal accounting standards, and (9) property, plant, and equipment lacked
                 adequate policies and procedures. KPMG tests of compliance with the FFMIA
                 requirements disclosed instances in which the USGS financial management systems
                 did not substantially comply with Federal financial management systems
                 requirements, applicable Federal accounting standards, and the U.S. Standard
                 General Ledger at the transaction level. USGS officials generally concurred with
                 the reported findings and agreed to make the necessary corrections.




      Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                              31
                                       Appendix 1

                      Summary of Audit Related Activities
                    April 01, 2002 through September 30, 2002

                                          AUDITS PERFORMED BY:
                                                       OTHER           NON-
                                                      FEDERAL        FEDERAL
                                                     AUDITORS       AUDITORS
                                                    (With Review (With Review
                                                    and Processing and Processing
                                     OIG STAFF       by OIG Staff) by OIG Staff)
                                     Internal and
                                       Contract
                                      Audits and    Contract and
                                        ICPs*       Grant Audits   Single Audits    TOTAL

REPORTS ISSUED TO:

Department/Office of the Secretary        9               0               5           14
Fish and Wildlife and Parks               9               0              31           40
Indian Affairs                            1               0             173          174
Insular Affairs                           5               0              11           16
Land and Minerals Management              3               0               5            8
Water and Science                         3               0              26           29
 Subtotal Reports Issued                 30               0             251          281

ICPs NEGOTIATED FOR:

Indian Tribes and Organization           334              0              0           334
Insular Areas                              2              0              0             2
State Agencies                            70              0              0            70
  Subtotal ICPs Negotiated               406              0              0           406


     TOTAL Reports and ICPs              436              0             251          687


_______________
*Indirect Cost Proposals
        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               32
                                               Appendix 2

Audit Reports Issued or Processed and Indirect Cost Proposals Negotiated
        During the 6-Month Period Ended September 30, 2002
This listing includes all internal reports (internal audits, advisory reports, and assessments), contract and
single audit reports issued, and indirect cost agreements negotiated during the 6-month period that ended
September 30, 2002. It provides report number, title, issue date, and monetary amounts identified in each
report (* Funds to be put to Better Use, ** Questioned Cost, *** Unsupported Cost and **** Lost or
Potential Additional Revenues).

INTERNAL REPORTS
Bureau of Indian Affairs

2002-I-0027     Independent Auditors’ Report on the Office of Special Trustee for American Indians Tribal
                and Other Trust Funds and Individual Indian Monies Trust Funds’ Financial Statements for
                Fiscal Years 2001 and 2000 (04/25/2002)

Bureau of Land Management

2002-I-0047     Improvements Needed in Developing and Reporting on Government Performance and
                Results Act (GPRA) Goals and Measures (09/25/2002)

Bureau of Reclamation

2002-I-0052     Review of Central Valley Project Responsibilities Transferred Under Direct Funding
                Agreements Between Bureau of Reclamation and Three California Water Authorities
                (09/30/2002)

Guam

2002-I-0036     Management of Federal Grants, Department of Mental Health and Substance Abuse,
                Government of Guam (08/19/2002) *$300,260, **$198,190 & ***$1,504,141

Minerals Management Service

2002-I-0044     Evaluation of Vulnerabilities to Underreporting: Royalty-in-Value Versus Royalty-in-Kind
                (09/12/2002)
2002-I-0050     GovWorks Gainsharing Program and Recovery of Costs Related to the Interior
                Franchise Fund (09/30/2002)



         Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                      33
Appendix 2 (continued)




Multi-Office

2002-I-0031 District of Columbia Water and Sewer Activity for the Period January 1, 2002 through
            March 31, 2002 (04/18/2002)
2002-I-0034 Policies and Procedures Related to the Rural Development Act of 1972 (05/08/2002)
2002-I-0037 Kinder Morgan Gas Plant, Douglas, Wyoming (07/18/2002)
2002-I-0038 Developing the Department of the Interior’s Information Technology Capital Investment
            Process: A Framework for Action (08/26/2002)
2002-I-0041 District of Columbia Water and Sewer Activity for the Period April 1, 2002 through June
            30, 2002 (07/29/2002)
2002-I-0048 Integrated Charge Card Program for Travel, U.S. Department of the Interior (08/29/2002)
2002-I-0049 Annual Evaluation of the Information Security Program and Practices Over Non-National
            Security Systems, U.S. Department of the Interior (09/16/2002)

National Park Service

2002-I-0032    Concessioner Special Accounts, National Park Service (06/07/2002)
2002-I-0045    Recreational Fee Demonstration Program, National Park Service and Bureau of
               Land Management (08/19/2002) *$2,852,732

Office of the Secretary

2002-I-0029    Independent Auditors’ Report on the Departmental Offices’ Financial Statements for Fiscal
               Years 2001 and 2000 (04/10/2002)
2002-I-0030    Independent Auditors’ Report on the Interior Franchise Fund’s Financial Statements for
               Fiscal Years 2001 and 2000 (04/10/2002)

U.S. Geological Survey

2002-I-0054    Independent Auditors’ Report on the U.S. Geological Survey’s Financial Statements for
               Fiscal Years 2001 and 2000 (09/30/2002)

U.S. Virgin Islands

2002-I-0026    Verification of Watch Quota and Jewelry Quota Data for Calendar Year 2001 Submitted by
               Firms Located in the U.S. Virgin Islands (04/05/2002)
2002-I-0042    Federal Highway Grants, Department of Public Works, Government of the Virgin Islands
               (08/16/2002) *$835,200 & **$506,660
2002-I-0043    Grants for the Construction of Health Care Facilities, Department of Health, Government of
               the Virgin Islands (09/20/2002) *$1,643,532 & ***$1,082,290


        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                   34
                                                                               Appendix 2 (continued)




2002-I-0046   Professional Service Contracts, Government of the Virgin Islands (09/20/2002) *$75,000,
              **$130,000 & ***$1,019,791

CONTRACT AND GRANT AUDITS
Bureau of Reclamation
2002-E-0008 Tooele City, Utah, Costs Billed Under Bureau of Reclamation Cooperative Agreement No.
            98-FC-40-0870 for the Tooele Wastewater Treatment and Reuse Project (09/20/2002)
            **$461,981

U.S. Fish and Wildlife Service
2002-E-0004 State of Maine, Department of Marine Resources, Costs Claimed Under Federal Aid
            Grants from the U. S. Fish and Wildlife Service from July 1, 1996 to
            June 30, 1998 (05/24/2002)
2002-E-0006 State of New Mexico, Department of Game and Fish, Costs Claimed Under Federal Aid
            Grants from the U.S. Fish and Wildlife Service from July 1, 1996 to June 30, 1998
            (08/01/2002) **$27,850
2002-E-0007 State of South Carolina, Department of Natural Resources, and the Marine Resources
            Division, Costs Claimed Under Federal Aid Grants from the U.S. Fish and Wildlife Service
            from July 1, 1996 to June 30, 1998 (08/06/2002) **$56,280
2002-E-0009 Commonwealth of Virginia, Department of Game and Inland Fisheries, Costs Claimed
            Under Federal Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1997 to
            June 30, 1999 (09/04/2002)
2002-E-0010 State of Delaware, Department of Natural Resources and Environmental Control, Costs
            Claimed Under Federal Aid Grants from the U.S. Fish and Wildlife Service from
            July 1, 1998 to June 30, 2000 (09/04/2002)
2002-E-0011 State of North Dakota, Game and Fish Department, Costs Claimed Under Federal Aid
            Grants from the U.S. Fish and Wildlife Service from July 1, 1997 to June 30, 1999
            (09/10/2002)
2002-E-0012 State of Oklahoma, Department of Wildlife Conservation, Costs Claimed Under Federal
            Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1996 to June 30, 1998
            (09/09/2002) **$631,828, ***$106,000 & ****$1,610,935


SINGLE AUDITS
Bureau of Indian Affairs

2002-A-0235 Greenville Rancheria, Fiscal Year Ended December 31, 1998 (04/04/2002)
2002-A-0236 Native Village of Gambell, Fiscal Year Ended December 31, 1999 (04/04/2002)

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 35
Appendix 2 (continued)




2002-A-0238 Native Village of Barrow, Fiscal Year Ended December 31, 2000 (04/05/2002)
2002-A-0239 Mille Lacs Band of Chippewa Indians, Fiscal Year Ended September 30, 2000
            (04/05/2002)
2002-A-0240 Walker River Paiute Tribe, Fiscal Year Ended December 31, 1999 (04/05/2002)
2002-A-0242 Cheyenne & Arapaho Tribes of Oklahoma, Fiscal Year Ended December 31, 1998
            (04/05/2002)
2002-A-0243 Native Village of Gambell, Fiscal Year Ended December 31, 1998 (04/05/2002)
            **$65,525
2002-A-0244 Alabama-Coushatta Tribe of Texas, Fiscal Year Ended December 31, 1999 (04/05/2002)
2002-A-0245 Tohono O’odham Nation, Fiscal Year Ended September 30, 2000 (04/10/2002)
2002-A-0246 Jena Band of Choctaw Indians, Fiscal Year Ended December 31, 2000 (04/10/2002)
2002-A-0250 Hoopa Valley Tribe, Fiscal Year Ended September 30, 2000 (04/12/2002)
2002-A-0251 Makah Tribal Council, Fiscal Year Ended December 31, 2000 (04/12/2002)
2002-A-0252 Mechoopda Indian Tribe of Chico Rancheria, California, Fiscal Year Ended
            December 31, 2000 (04/12/2002)
2002-A-0253 Redding Rancheria, Fiscal Year Ended December 31, 2000 (04/12/2002)
2002-A-0254 Fallon Paiute-Shoshone Tribe, Fiscal Year Ended December 31, 1999 (04/19/2002)
2002-A-0255 Lower Brule Sioux Tribe, Fiscal Year Ended September 30, 2000 (04/19/2002)
2002-A-0256 Mississippi Band of Choctaw Indians, Fiscal Year Ended September 30, 2000
            (04/15/2002)
2002-A-0257 Lummi Indian Business Council, Fiscal Year Ended December 31, 2000 (04/16/2002)
2002-A-0265 Cheyenne & Arapaho Tribes of Oklahoma, Fiscal Year Ended December 31, 1999
            (05/10/2002)
2002-A-0266 United Sioux Tribes of South Dakota Development Corporation, Fiscal Year Ended
            September 30, 2000 (05/10/2002)
2002-A-0267 Sky People Higher Education, Fiscal Year Ended September 30, 2000 (05/10/2002)
2002-A-0269 Pueblo of Laguna, Fiscal Year Ended February 29, 2000 (05/10/2002)
2002-A-0270 Pueblo of Laguna, Fiscal Year Ended February 28, 2001 (05/10/2002)
2002-A-0271 Bear River Band of Rohnerville Rancheria, Fiscal Year Ended December 31, 2000
            (05/10/2002) **$63,218
2002-A-0272 Dull Knife Memorial College, Fiscal Year Ended September 30, 2000 (05/10/2002)
2002-A-0273 Grand Traverse Band of Ottawa and Chippewa Indians, Fiscal Year Ended
            September 30, 2000 (05/10/2002)
2002-A-0277 Pueblo of Acoma, Fiscal Year Ended December 31, 1999 (05/10/2002)
2002-A-0278 Pueblo of Acoma, Fiscal Year Ended December 31, 2000 (05/10/2002)
2002-A-0282 Association of Village Council Presidents, Incorporated, Fiscal Year Ended
            December 31, 2000 (05/17/2002)
2002-A-0283 Tunica Biloxi Tribe of Louisiana, Fiscal Year Ended December 31, 2000 (05/17/2002)
2002-A-0284 Pueblo of Tesuque, Fiscal Year Ended December 31, 2000 (05/17/2002)
2002-A-0285 Big Valley Rancheria Band of Pomo Indians, Fiscal Year Ended December 31, 2000
            (05/17/2002)
2002-A-0286 Navajo Preparatory School, Fiscal Year Ended June 30, 2000 (05/17/2002)

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                              36
                                                                           Appendix 2 (continued)




2002-A-0287 Bad River Band of Lake Superior Tribe of Chippewa Indians, Fiscal Year Ended
            September 30, 1999 (05/17/2002)
2002-A-0288 Sac and Fox Nation of Oklahoma, Fiscal Year Ended September 30, 2000 (05/17/2002)
2002-A-0289 Lac Courte Oreilles Band of Lake Superior Chippewa Indians of Wisconsin, Fiscal Year
            Ended September 30, 1999 (05/20/2002)
2002-A-0290 Akiak Native Community, Fiscal Year Ended December 31, 1997 (05/21/2002) **$1,324
2002-A-0291 Akiak Native Community, Fiscal Year Ended December 31, 1998 (05/21/2002) **$1,256
2002-A-0293 Osage Tribal Council, Fiscal Year Ended June 30, 2000 (05/21/2002)
2002-A-0294 Casa Blanca Community School, Incorporated, Fiscal Year Ended June 30, 2000
            (05/20/2002)
2002-A-0296 Nez Perce Tribe, Fiscal Year Ended September 30, 1999 (05/31/2002)
2002-A-0297 Nez Perce Tribe, Fiscal Year Ended September 30, 2000 (05/31/2002)
2002-A-0298 Chippewa Cree Tribe, Fiscal Year Ended September 30, 2000 (05/31/2002)
2002-A-0301 Ganado Unified School District No. 20, Fiscal Year Ended June 30 1999
            (06/05/2002)
2002-A-0303 Ganado Unified School District No. 20, Fiscal Year Ended June 30, 1997 (06/07/2002)
2002-A-0304 Red Cliff Band of Lake Superior Chippewas, Fiscal Year Ended September 30,
            1998 (06/06/2002)
2002-A-0305 Red Cliff Band of Lake Superior Chippewas, Fiscal Year Ended September 30, 1999
            (06/06/2002) **$437,715
2002-A-0307 Turtle Mountain Band of Chippewa Indians, Fiscal Year Ended September 30, 2000
            (06/06/2002) **$477,170
2002-A-0308 Pueblo of Zuni, Fiscal Year Ended December 31, 2000 (06/06/2002)
2002-A-0309 Confederated Tribes and Bands of the Yakama Nation, Fiscal Year Ended
            September 30, 1999 (06/06/2002)
2002-A-0310 Kipnuk Traditional Council, Fiscal Year Ended December 31, 2000 (06/06/2002)
2002-A-0311 Chalkyitsik Village Council, Fiscal Year Ended September 30, 2000 (06/06/2002)
2002-A-0312 Huron Potawatomi, Incorporated, Fiscal Year Ended December 31, 2000 (06/06/2002)
2002-A-0313 Morongo Band of Mission Indians, Fiscal Year Ended June 30, 2000 (06/06/2002)
2002-A-0314 Standing Rock Sioux Tribe, Fiscal Year September 30, 2000 (07/01/2002)
2002-A-0315 Native Village of Gambell, Fiscal Year Ended December 31, 1997 (06/14/2002)
            **$64,635
2002-A-0316 Pit River Tribe, Fiscal Year Ended December 31, 2000 (06/13/2002)
2002-A-0317 Ponca Tribe of Nebraska, Fiscal Year Ended September 30, 2000 (06/14/2002)
2002-A-0318 Pueblo of Zia, Fiscal Year December 31, 2000 (06/14/2002)
2002-A-0322 Aroostook Band of Micmacs, Fiscal Year Ended December 31, 2000 (06/28/2002)
2002-A-0323 Black Mesa Community School Board, Incorporated, Fiscal Year Ended June 30, 2000
            (06/26/2002)
2002-A-0324 Takini School, Fiscal Year Ended June 30, 2000 (06/26/2002)
2002-A-0325 Assiniboine and Sioux Tribes, Fiscal Year Ended September 30, 2000 (06/26/2002)
2002-A-0326 Chemehuevi Indian Tribe, Fiscal Year Ended December 31, 2000 (06/26/2002)
2002-A-0327 Hydaburg Cooperative Association, Fiscal Year Ended December 31, 2000 (06/26/2002)

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               37
Appendix 2 (continued)




2002-A-0328 Marty Indian School, Fiscal Year Ended June 30, 1999 (06/26/2002) **$70,191
2002-A-0331 Greenville Rancheria, Fiscal Year Ended December 31, 1999 (06/26/2002)
2002-A-0332 Sokaogon Chippewa Community (Mole Lake Band), Fiscal Year Ended
            September 30, 2000 (06/26/2002)
2002-A-0333 Sisseton-Wahpeton Housing Authority, Fiscal Year Ended June 30, 2000 (06/26/2002)
2002-A-0336 Pawnee Nation of Oklahoma, Fiscal Year Ended December 31, 2000 (07/01/2002)
2002-A-0338 Squaxin Island Tribe, Fiscal Year Ended September 30, 2000 (07/02/2002)
2002-A-0339 Rough Rock Community School, Fiscal Year Ended June 30, 1998 (07/09/2002)
2002-A-0341 Quapaw Tribe of Oklahoma, Fiscal Year Ended September 30, 1997 (07/11/2002)
2002-A-0342 Santa Clara Indian Pueblo, Fiscal Year Ended December 31, 2000 (07/12/2002)
2002-A-0343 Elko Band Council, Fiscal Year Ended September 30, 2000 (07/11/2002)
2002-A-0344 San Juan Pueblo Board of Education, Fiscal Year Ended June 30, 2000 (07/11/2002)
2002-A-0345 Tuluksak Native Community, Fiscal Year Ended December 31, 2000 (07/11/2002)
            **$8,733
2002-A-0346 Red Lake Band of Chippewa Indians, Fiscal Year Ended September 30, 2000
            (07/11/2002)
2002-A-0347 Sauk-Suiattle Indian Tribe, Fiscal Year Ended December 31, 2000 (07/11/2002)
2002-A-0348 Scotts Valley Band of Pomo Indians, Fiscal Year Ended December 31, 2000 (07/11/2002)
2002-A-0349 Ramona Band of Cahuilla Mission Indians, Fiscal Year Ended December 31, 2000
            (07/16/2002) **$64,917
2002-A-0350 Kaibab Band of Paiute Indians, Fiscal Year Ended December 31, 2000 (07/16/2002)
2002-A-0351 Chenega IRA Council, Fiscal Year Ended December 31, 2000 (07/16/2002) **$7,801
2002-A-0352 Flandreau Santee Sioux Tribe, Fiscal Year Ended December 31, 2000 (07/15/2002)
2002-A-0355 Washoe Tribe of Nevada and California, Fiscal Year Ended December 31, 2000
            (07/18/2002) **$60,500
2002-A-0356 United Tribes Technical College, Fiscal Year Ended June 30, 1998 (07/19/2002)
2002-A-0357 United Tribes Technical College, Fiscal Year Ended June 30, 1999 (07/19/2002)
2002-A-0358 United Tribes Technical College, Fiscal Year Ended June 30, 2000 (07/19/2002)
2002-A-0359 Pinon Community School, Incorporated, Fiscal Year Ended June 30, 1999 (07/19/2002)
2002-A-0360 Coast Indian Community of the Resighini Rancheria, Fiscal Year Ended
            December 31, 1998 (07/19/2002) **$40,000
2002-A-0361 Salt River Pima-Maricopa Indian Community, Fiscal Year Ended September 30, 1998
            (07/19/2002)
2002-A-0362 Taos Pueblo Central Management System, Fiscal Year Ended December 31, 2000
            (07/19/2002)
2002-A-0363 Santee Sioux Tribe of Nebraska, Fiscal Year Ended September 30, 1999 (07/19/2002)
2002-A-0364 Santee Sioux Tribe of Nebraska, Fiscal Year Ended September 30, 2000 (07/19/2002)
2002-A-0369 Leech Lake Band of Ojibwe, Fiscal Year Ended June 30, 2000 (07/19/2002)
2002-A-0370 Lac Courte Oreilles Ojibwa Community College, Fiscal Year Ended June 30, 2000
            (07/19/2002)
2002-A-0371 Augustine Band of Cahuilla Mission Indians, Fiscal Year Ended December 31, 2000
            (07/19/2002) **$52,233

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               38
                                                                               Appendix 2 (continued)




2002-A-0375   Fort Belknap Indian Community, Fiscal Year Ended September 30, 2000 (07/26/2002)
2002-A-0376   Blue Lake Rancheria, Fiscal Year Ended December 31, 2000 (08/01/2002)
2002-A-0377   Iowa Tribe of Oklahoma, Fiscal Year Ended December 31, 2000 (08/01/2002)
2002-A-0378   Santo Domingo Tribe, Tribal Programs Office, Fiscal Year Ended September 30, 2001
              (08/01/2002)
2002-A-0379   Sault Ste. Marie Tribe of Chippewa Indians, Fiscal Year Ended December 31, 2001
              (08/02/2002)
2002-A-0380   Confederated Tribes and Bands of the Yakima Nation, Fiscal Year Ended
              September 30, 2000 (08/02/2002)
2002-A-0381   Pueblo of Nambe, Fiscal Year Ended September 30, 1998 (08/02/2002)
2002-A-0382   Fort Mojave Indian Tribe, Fiscal Year Ended September 30, 2000 (08/05/2002)
2002-A-0383   Elk Valley Rancheria, Fiscal Year Ended December 31, 2000 (08/05/2002)
2002-A-0384   Winnebago Tribe of Nebraska, Fiscal Year Ended September 30, 2000 (08/05/2002)
2002-A-0385   Fort McDowell Yavapai Nation, Fiscal Year Ended September 30, 2000 (08/05/2002)
              **$137,119
2002-A-0386   Confederated Tribes of Coos, Lower Umpqua and Siuslaw Indians, Fiscal Year Ended
              December 31, 2000 (08/05/2002)
2002-A-0387   Cocopah Indian Tribe, Fiscal Year Ended December 31, 1999 (08/05/2002)
2002-A-0388   Gila River Indian Community, Fiscal Year Ended September 30, 2001 (08/07/2002)
2002-A-0389   Cow Creek Band of Umpqua Tribe of Indians, Fiscal Year Ended December 31, 2001
              (08/07/2002)
2002-A-0390   Te-Moak Tribe of Western Shoshone Battle Mountain Band Council, Fiscal Year Ended
              September 30, 2001 (08/07/2002)
2002-A-0393   Joint Programs of the Shoshone and Arapaho Tribes of the Wind Reservation, Fiscal Year
              Ended December 31, 2000 (08/08/2002)
2002-A-0394   Kickapoo Tribe of Oklahoma, Fiscal Year Ended September 30, 1998 (08/12/2002)
              **$131,465
2002-A-0395   Yavapai-Apache Nation, Fiscal Year Ended December 31, 2000 (08/12/2002)
2002-A-0396   Three Affiliated Tribes, Fiscal Year Ended September 30, 1998 (08/12/2002) **$57,108
2002-A-0398   Eastern Shoshone Tribe of the Wind River Reservation, Fiscal Year Ended
              December 31, 2000 (08/14/2002)
2002-A-0399   White Mountain Apache Tribe, Fiscal Year Ended April 30, 2001 (08/14/2002)
2002-A-0400   Oneida Tribe of Indians of Wisconsin, Fiscal Year Ended September 30, 2001
              (08/14/2002)
2002-A-0401   Kayenta Community School, Fiscal Year Ended June 30, 2001 (08/16/2002)
2002-A-0405   Sitting Bull College, Fiscal Year Ended June 30, 2001 (08/16/2002)
2002-A-0408   Second Mesa Day School, Fiscal Year Ended June 30, 1997 (08/16/2002)
2002-A-0409   Stevens Village Council, Fiscal Year Ended September 30, 1998 (08/16/2002)
2002-A-0410   Nisqually Indian Tribe, Fiscal Year Ended December 31, 2000 (08/22/2002)
2002-A-0411   Pueblo of Laguna Department of Education, Fiscal Year Ended June 30, 2001
              (08/26/2002)


       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 39
Appendix 2 (continued)




2002-A-0413 Native Village of Gambell, Fiscal Year Ended December 31, 2000 (08/26/2002)
            **$240,638
2002-A-0414 Alamo Navajo School Board, Inc., Fiscal Year Ended June 30, 2001 (08/26/2002)
2002-A-0419 Tiospa Zina Tribal School, Fiscal Year Ended June 30, 2001 (08/29/2002)
2002-A-0420 Saint Regis Mohawk Tribe, Fiscal Year Ended December 31, 2001 (09/27/2002)
2002-A-0422 Kaw Nation of Oklahoma, Fiscal Year Ended December 31, 2000 (09/09/2002)
2002-A-0423 Enemy Swim Day School, Fiscal Year Ended June 30, 2001 (09/09/2002)
2002-A-0424 Rock Point School, Inc., Fiscal Year Ended June 30, 2001 (09/09/2002)
2002-A-0425 Naa Tsis Aan Community School, Fiscal Year Ended June 30, 2001 (09/09/2002)
2002-A-0428 Chief Leschi Schools, Inc., Fiscal Year Ended June 30, 2001 (09/11/2002)
2002-A-0430 Cortina Indian Rancheria, Fiscal Year Ended December 31, 1999 (09/11/2002)
2002-A-0431 Chickasaw Nation, Fiscal Year Ended September 30, 2001 (09/11/2002)
2002-A-0432 Northwest Indian Fisheries Commission, Fiscal Year Ended September 30, 2001
            (09/11/2002)
2002-A-0433 Winslow Residential Hall, Inc., Fiscal Year Ended June 30, 2001 (09/11/2002)
2002-A-0434 Nooksack Indian Tribe, Fiscal Year Ended December 31, 1999 (09/11/2002)
2002-A-0436 Northern Cheyenne Tribal School, Fiscal Year Ended June 30, 2001 (09/16/2002)
2002-A-0438 Emmonak Tribal Council, Fiscal Year Ended December 31, 1999 (09/16/2002) **$22,629
2002-A-0439 Hannahville Indian Community, Fiscal Year Ended September 30, 2001 (09/16/2002)
2002-A-0440 Quileute Tribal Council, Fiscal Year Ended September 30, 2000 (09/16/2002)
2002-A-0445 Nazlini Community School, Inc., Fiscal Year Ended June 30, 1999 (09/18/2002)
2002-A-0446 Standing Rock Community Grant School, Fiscal Year Ended June 30, 2000 (09/18/2002)
            **$584
2002-A-0447 Cloverdale Rancheria of Pomo Indians, Fiscal Year Ended December 31, 1999
            (09/18/2002)
2002-A-0449 Indian Township Tribal Government, Fiscal Year Ended September 30, 2000 (09/18/2002)
2002-A-0452 Colorado River Indian Tribes, Fiscal Year Ended December 31, 2000 (09/20/2002)
2002-A-0453 Native Village of Eklutna, Fiscal Year Ended September 30, 2000 (09/20/2002)
2002-A-0454 Shonto Governing Board of Education, Inc., Fiscal Year Ended June 30, 2002
            (09/20/2002)
2002-A-0455 Ute Indian Tribe, Fiscal Year Ended September 30, 2000 (09/20/2002)
2002-A-0456 Little Singer Community School Board, Inc. and Little Singer Junior High School, Fiscal
            Year Ended June 30, 2001 (09/20/2002)
2002-A-0457 Three Affiliated Tribes, Fiscal Year Ended September 30, 1999 (09/20/2002)
2002-A-0459 Pascua Yaqui Tribe of Arizona, Fiscal Year Ended September 30, 2000 (09/20/2002)
            **$17,108
2002-A-0460 Crow Tribe of Indians, Fiscal Year Ended September 30, 2000 (09/20/2002)
2002-A-0461 Lac Courte Oreilles Band of Lake Superior Chippewa Indians of Wisconsin, Fiscal Year
            Ended September 30, 2000 (09/20/2002)
2002-A-0462 Circle of Nations School, Inc., Fiscal Year Ended June 30, 2000 (09/25/2002)
2002-A-0463 South Fork Band Council, Fiscal Year Ended September 30, 2000 (09/25/2002)


        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                40
                                                                              Appendix 2 (continued)




2002-A-0464 Little Traverse Bay Bands of Odawa Indians, Fiscal Year Ended December 31, 2001
            (09/25/2002)
2002-A-0465 Loneman Day School, Fiscal Year Ended June 30, 2001 (09/25/2002)
2002-A-0466 Developing Innovations in Navajo Education, Inc., Fiscal Year Ended
            December 31, 2000 (09/25/2002)
2002-A-0467 Sisseton-Wahpeton Community College, Fiscal Year Ended June 30, 1999 (09/25/2002)
2002-A-0468 Ponca Tribe of Nebraska, Fiscal Year Ended September 30, 2001 (09/27/2002)
2002-A-0469 Hoopa Valley Tribe, Fiscal Year Ended September 30, 2001 (09/27/2002)
2002-A-0470 Rosebud Sioux Tribe, Fiscal Year Ended September 30, 2000 (09/27/2002)
2002-A-0471 Shoshone-Bannock Tribes, Fiscal Year Ended September 30, 2000 (09/27/2002)
2002-A-0476 Shiprock Alternative Schools, Inc., Fiscal Year Ended June 30, 2001 (09/26/2002)
2002-A-0477 San Juan Pueblo Board of Education, Fiscal Year Ended June 30, 2001 (09/30/2002)
2002-A-0479 Sac and Fox Nation of Missouri, Fiscal Year Ended September 30, 2001 (09/30/2002)
2002-A-0480 Chilchinbeto Community School, Fiscal Year Ended June 30, 2001 (09/30/2002)
2002-A-0482 Northern Pueblos Tributary Water Rights Association, Fiscal Year Ended
            September 30, 1999 (09/30/2002)
2002-A-0483 Fort Mojave Indian Tribe, Fiscal Year Ended September 30, 2001 (09/30/2002)

Bureau of Land Management

2002-A-0247 County of Berks, Pennsylvania, Fiscal Year Ended December 31, 2000 (04/12/2002)
2002-A-0248 Madera County, California, Fiscal Year Ended June 30, 2000 (04/12/2002)
2002-A-0451 Alaska Village Initiatives, Subsidiaries and Affiliates, Fiscal Year Ended
            September 30, 2001 (09/20/2002)

Bureau of Reclamation

2002-A-0260 Mesa County Land Conservancy, Incorporated, Fiscal Year Ended April 30, 2000
            (04/24/2002)
2002-A-0261 Sahuarita Unified School District No. 30, Fiscal Year Ended June 30, 2000 (04/24/2002)
2002-A-0274 Santa Fe City, New Mexico, Fiscal Year Ended June 30, 2000 (05/10/2002)
2002-A-0335 West River/Lyman-Jones Rural Water Systems, Incorporated, Fiscal Year Ended
            December 31, 2000 (07/01/2002)
2002-A-0354 Eastern Municipal Water District, Fiscal Year Ended June 30, 2001 (07/18/2002)
2002-A-0372 Nebraska Community Foundation, Fiscal Year Ended June 30, 2001 (07/26/2002)
2002-A-0373 New Mexico, Eastern Plains Council of Governments, Fiscal Year Ended June 30, 2000
            (07/26/2002)
2002-A-0426 Lewis and Clark Rural Water System, Inc., Fiscal Year Ended December 31, 2001
            (09/11/2002)
2002-A-0443 Bay Area Dischargers Association - Central California Regional Water Recycling Program -
            Step II, Fiscal Year Ended June 30, 1998 (09/16/2002)

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                41
Appendix 2 (continued)




2002-A-0444 Bay Area Dischargers Association - Central California Regional Water Recycling Program -
            Step II, Fiscal Year Ended June 30, 1999 (09/16/2002)
2002-A-0448 West River/Lyman-Jones Rural Water Systems, Inc., Fiscal Year Ended
            December 31, 2001 (09/16/2002)
2002-A-0484 Uintah Water Conservancy District, Fiscal Year Ended December 31, 2001 (09/30/2002)
2002-A-0485 Uintah Water Conservancy District, Fiscal Year Ended December 31, 2000 (09/30/2002)
            **$296,179
Chuuk

2002-A-0268 Chuuk Organization for Community Action, Fiscal Year Ended March 31, 1999
            (05/08/2002)
2002-A-0276 Chuuk Organization for Community Action, Fiscal Year Ended March 31, 2000
            (05/10/2002)
2002-A-0279 Chuuk Organization for Community Action, Fiscal Year Ended March 31, 2001
            (05/14/2002) **$32,871

Federated States of Micronesia
2002-A-0237 Federated States of Micronesia National Government, Fiscal Year Ended
            September 30, 2000 (04/03/2002) **$329,504

Guam

2002-A-0258 Guam Economic Development Authority, Fiscal Year Ended September 30, 1999
            (04/18/2002)
2002-A-0259 Guam Economic Development Authority, Fiscal Year Ended September 30, 2000
            (04/19/2002)
2002-A-0280 Guam International Airport Authority, Fiscal Year Ended September 30, 2000
            (05/14/2002)

Northern Mariana Islands
2002-A-0264 Commonwealth Ports Authority, Fiscal Year Ended September 30, 2001 (04/26/2002)
2002-A-0281 Commonwealth Development Authority, Fiscal Year Ended September 30, 2001
            (05/15/2002)
2002-A-0299 Karidat, Fiscal Year Ended September 30, 2001 (06/03/2002)

National Park Service

2002-A-0249 University of Maryland System, Fiscal Year Ended June 30, 2000 (04/12/2002)
2002-A-0321 Howard University, Fiscal Year Ended June 30, 2000 (06/28/2002)

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                42
                                                                               Appendix 2 (continued)




2002-A-0330 University of the District of Columbia, Fiscal Year Ended September 30, 1999
            (06/26/2002)
2002-A-0340 Springfield Library and Museums Association, Fiscal Year Ended June 30, 2001
            (07/11/2002)
2002-A-0412 Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 2001
            (08/26/2002)
2002-A-0475 Salem International University, Fiscal Year Ended August 31, 2001 (09/26/2002)
2002-A-0481 Howard University, Fiscal Year Ended June 30, 2001 (09/30/2002)

Office of Surface Mining Reclamation and Enforcement

2002-A-0421 Commonwealth of Pennsylvania, Fiscal Year Ended June 30, 2001 (09/03/2002) **$1,220
2002-A-0472 West Virginia, Fiscal Year Ended June 30, 2001 (09/30/2002)

Office of the Secretary

2002-A-0262   University of Michigan, Fiscal Year Ended June 30, 2000 (04/25/2002)
2002-A-0263   Harvard University, Fiscal Year Ended June 30, 2000 (04/24/2002)
2002-A-0437   Department of Agriculture, Hawaii, Fiscal Year Ended June 30, 2001 (09/16/2002)
2002-A-0441   University of Michigan, Fiscal Year Ended June 30, 2001 (09/16/2002)
2002-A-0474   University of California, Fiscal Year Ended June 30, 2001 (09/26/2002)

U.S. Fish and Wildlife Service
2002-A-0241 American Sportfishing Association and Affiliates, Fiscal Year Ended
            September 30, 2000 (04/05/2002)
2002-A-0292 Iberville Parish Council, Fiscal Year Ended December 31, 2000 (06/14/2002)
2002-A-0295 Louisiana, Fiscal Year Ended June 30, 2000 (05/21/2002)
2002-A-0319 Harbor Branch Oceanographic Institution, Inc., Fiscal Year Ended December 31, 1999
            (06/27/2002)
2002-A-0320 California, Fiscal Year Ended June 30, 2000 (06/28/2002)
2002-A-0329 North Carolina, Fiscal Year Ended June 30, 2001 (06/28/2002)
2002-A-0334 North Carolina, Fiscal Year Ended June 30, 2000 (06/28/2002) **$18,745
2002-A-0337 Oklahoma, Fiscal Year Ended June 30, 2000 (07/02/2002)
2002-A-0365 Utah, Fiscal Year Ended June 30, 2000 (07/19/2002)
2002-A-0366 Utah, Fiscal Year Ended June 30, 2001 (07/19/2002)
2002-A-0367 Florida, Fiscal Year Ended June 30, 2000 (07/19/2002)
2002-A-0368 Florida, Fiscal Year Ended June 30, 2001 (07/19/2002) **$82,750
2002-A-0374 California State University, Stanislaus Foundation, Fiscal Year Ended June 30, 2001
            (07/26/2002)
2002-A-0397 University of New Mexico, Fiscal Year Ended June 30, 2001 (08/14/2002)

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 43
Appendix 2 (continued)




2002-A-0402    New Hampshire, Fiscal Year Ended June 30, 2001 (08/16/2002) **$13,147
2002-A-0407    Rhode Island and Providence Plantations, Fiscal Year Ended June 30, 2001 (08/16/2002)
2002-A-0416    Oregon, Fiscal Year Ended June 30, 2001 (08/29/2002)
2002-A-0418    Modoc Joint Unified School District, Fiscal Year Ended June 30, 2001 (08/29/2002)
2002-A-0435    Texas, Fiscal Year Ended August 31, 2001 (09/11/2002)
2002-A-0442    American Sportfishing Association and Affiliates, Fiscal Year Ended September 30, 2001
               (09/12/2002)
2002-A-0458    Montshire Museum of Science, Inc., Fiscal Year Ended September 30, 2001 (09/20/2002)
               **$11,859
2002-A-0473    Washington, Fiscal Year Ended June 30, 2001 (09/26/2002)
2002-A-0481     Montana, Fiscal Year Ended June 30, 2001 (09/30/2002) **$759,577
2002-A-0482     Mississippi, Fiscal Year Ended June 30, 2001 (09/30/2002)

U.S. Geological Survey
2002-A-0275 California Institute of Technology, Fiscal Year Ended September 30, 2000
            (05/10/2002)
2002-A-0306 Woods Hole Oceanographic Institution, Fiscal Year Ended December 31, 2000
            (06/07/2002)
2002-A-0353 Massachusetts Institute of Technology, Fiscal Year Ended June 30, 2000 (07/18/2002)
2002-A-0391 University of Wyoming, Fiscal Year Ended June 30, 2001 (08/07/2002)
2002-A-0392 Ohio State University, Fiscal Year Ended June 30, 2001 (08/07/2002)
2002-A-0403 New Mexico Institute of Mining and Technology, Fiscal Year Ended June 30, 2001
            (08/16/2002)
2002-A-0406 Miami University, Fiscal Year Ended June 30, 2001 (08/16/2002)
2002-A-0415 Massachusetts Institute of Technology, Fiscal Year Ended June 30, 2001 (08/25/2002)
2002-A-0417 California State University, Fiscal Year Ended June 30, 2001 (08/28/2002)
2002-A-0427 University of Missouri System, Fiscal Year Ended June 30, 2001 (09/11/2002)
2002-A-0429 University of Massachusetts, Fiscal Year Ended June 30, 2001 (09/11/2002)
2002-A-0450 University of Maine System, Fiscal Year Ended June 30, 2001 (09/20/2002)
2002-A-0478 Academy of Natural Sciences of Philadelphia, Fiscal Year Ended December 31, 2001
            (09/30/2002)

U.S. Virgin Islands

2002-A-0302 Virgin Islands Port Authority, Government of the Virgin Islands, Fiscal Year Ended
            September 30, 2001 (06/04/2002)




         Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                  44
                                                                              Appendix 2 (continued)




INDIRECT COST PROPOSALS
Bureau of Indian Affairs
2002-P-0414 Little Traverse Bay Bands of Odawa Indians for Calendar Year Ended
            December 31, 1997 (04/01/2002)
2002-P-0415 Little Traverse Bay Bands of Odawa Indians for Calendar Year Ended
            December 31, 1998 (04/01/2002)
2002-P-0416 Little Traverse Bay Bands of Odawa Indians for Calendar Year Ended
            December 31, 2000 (04/03/2002)
2002-P-0417 Little Traverse Bay Bands of Odawa Indians for Calendar Year Ended
            December 31, 2001 (04/01/2002)
2002-P-0418 Little Traverse Bay Bands of Odawa Indians for Calendar Year Ended
            December 31, 2002 (04/01/2002)
2002-P-0419 Puyallup Tribe of Indians, Fiscal Year Ended September 30, 1998 (04/02/2002)
2002-P-0420 Puyallup Tribe of Indians, Fiscal Year Ended September 30, 1999 (04/03/2002)
2002-P-0421 Puyallup Tribe of Indians, Fiscal Year Ended September 30, 2000 (04/03/2002)
2002-P-0422 Puyallup Tribe of Indians, Fiscal Year Ended September 30, 2001 (04/03/2002)
2002-P-0423 Puyallup Tribe of Indians, Fiscal Year Ended September 30, 2002 (04/03/2002)
2002-P-0424 Kootenai Tribe of Idaho, Fiscal Year Ended September 30, 2002 (04/03/2002)
2002-P-0425 Coyote Valley Band of Pomo Indians of California, Fiscal Year Ended
            December 31, 2001 (04/03/2002)
2002-P-0426 Coyote Valley Band of Pomo Indians of California, Fiscal Year Ended
            December 31, 2002 (04/03/2002)
2002-P-0427 Round Valley Indian Health Center, Inc., Fiscal Year Ended June 30, 2001 (04/03/2002)
2002-P-0429 Old Harbor Tribal Council, Fiscal Year Ended September 30, 2001 (04/08/2002)
            *$25,659
2002-P-0430 Old Harbor Tribal Council, Fiscal Year Ended September 30, 2002 (04/08/2002)
            *$25,659
2002-P-0431 Northwest Intertribal Court System, Fiscal Year Ended September 30, 2002 (04/08/2002)
            *$19,606
2002-P-0432 Susanville Indian Rancheria, Fiscal Year Ended December 31, 2002 (04/08/2002)
2002-P-0433 Cow Creek Band of Umpqua Tribe, Fiscal Year Ended December 31, 1999 (04/08/2002)
2002-P-0434 Cow Creek Band of Umpqua Tribe, Fiscal Year Ended December 31, 2000 (04/08/2002)
            *$11,485
2002-P-0435 Cow Creek Band of Umpqua Tribe, Fiscal Year Ended December 31, 2001 (04/08/2002)
2002-P-0436 Cow Creek Band of Umpqua Tribe, Fiscal Year Ended December 31, 2002 (04/08/2002)
            *$70,079
2002-P-0437 Institute of American Indian and Alaska Native Culture and Arts Development, Fiscal Year
            Ended September 30, 2002 (04/08/2002)
2002-P-0439 Jena Band of Choctaw Indians, Fiscal Year Ended December 31, 2001 (04/08/2002)


        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 45
Appendix 2 (continued)




2002-P-0440 Jena Band of Choctaw Indians, Fiscal Year Ended December 31, 2002 (04/08/2002)
            *$1,106
2002-P-0443 Skokomish Indian Tribe, Fiscal Year Ended September 30, 2002 (04/10/2002)
2002-P-0444 Tohono O’odham Nation, Fiscal Year Ended September 30, 1998 (04/10/2002)
2002-P-0445 Tohono O’odham Nation, Fiscal Year Ended September 30, 1999 (04/10/2002)
2002-P-0446 Tohono O’odham Nation, Fiscal Year Ended September 30, 2000 (04/10/2002)
2002-P-0447 Samish Indian Nation, Fiscal Year Ended December 31, 2002 (04/10/2002) *$28,546
2002-P-0448 Picayune Rancheria of the Chukchansi Indians, Fiscal Year Ended October 31, 1998
            (04/10/2002) *$43,119
2002-P-0449 Bay Mills Community College, Fiscal Year Ended June 30, 2001 (04/16/2002)
2002-P-0450 Bay Mills Community College, Fiscal Year Ended June 30, 2002 (04/16/2002)
2002-P-0452 Pawnee Nation of Oklahoma, Fiscal Year Ended December 31, 2000 (04/16/2002)
            *$1,516
2002-P-0453 Pawnee Nation of Oklahoma, Fiscal Year Ended December 31, 2001 (04/16/2002)
2002-P-0454 Las Vegas Paiute Tribe, Fiscal Year Ended December 31, 2001 (04/16/2002) *$8,679
2002-P-0456 Shoshone-Paiute Tribes of the Duck Valley Indian Reservation, Fiscal Year Ended
            September 30, 2002 (04/16/2002) *$74,785
2002-P-0457 Native Village of Kwinhagak, Fiscal Year Ended June 30, 2000 (04/16/2002)
2002-P-0458 Native Village of Kwinhagak, Fiscal Year Ended June 30, 2001 (04/16/2002)
2002-P-0459 Rock Point Community School, Fiscal Year Ended June 30, 2002 (04/16/2002) *$54,805
2002-P-0460 Native Village of Kwinhagak, Fiscal Year Ended June 30, 2002 (04/16/2002)
2002-P-0461 Douglas Indian Association, Fiscal Year Ended December 31, 2002 (04/17/2002)
2002-P-0462 Douglas Indian Association, Fiscal Year Ended December 31, 2003 (04/17/2002)
2002-P-0463 Trinidad Rancheria, Fiscal Year Ended December 31, 2002 (04/18/2002) *$7,043
2002-P-0464 Stillaguamish Tribe of Indians, Fiscal Year Ended September 30, 2001 (04/18/2002)
2002-P-0465 Stillaguamish Tribe of Indians, Fiscal Year Ended September 30, 2002 (04/18/2002)
2002-P-0466 Narragansett Indian Tribe, Fiscal Year Ended December 31, 2001 (04/18/2002) *$48,739
2002-P-0467 Kiowa Tribe of Oklahoma, Fiscal Year Ended June 30, 1998 (04/18/2002)
2002-P-0468 Kiowa Tribe of Oklahoma, Fiscal Year Ended June 30, 1999 (04/18/2002)
2002-P-0469 Kiowa Tribe of Oklahoma, Fiscal Year Ended June 30, 2000 (04/18/2002)
2002-P-0470 Northwest Indian Fisheries Commission, Fiscal Year Ended September 30, 2002
            (04/19/2002) *$63,878
2002-P-0471 Greenville Rancheria of Maidu Indians of California , Fiscal Year Ended
            December 31, 1999 (04/19/2002)
2002-P-0472 Greenville Rancheria of Maidu Indians of California , Fiscal Year Ended
            December 31, 2000 (04/19/2002)
2002-P-0473 Greenville Rancheria of Maidu Indians of California, Fiscal Year Ended
            December 31, 2001 (04/19/2002)
2002-P-0475 Pueblo of Zuni, Fiscal Year Ended December 31, 1995 (04/24/2002)
2002-P-0476 Pueblo of Zuni, Fiscal Year Ended December 31, 1999 (04/24/2002) *$586,293
2002-P-0477 Pueblo of Zuni, Fiscal Year Ended December 31, 2000 (04/24/2002) *$141,502
2002-P-0478 Pueblo of Zuni, Fiscal Year Ended December 31, 2001 (04/24/2002) *$81,223

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               46
                                                                          Appendix 2 (continued)



2002-P-0479 Mooretown Rancheria of Maidu Indians of California, Fiscal Year Ended
            December 31, 2002 (04/24/2002)
2002-P-0480 Naknek Native Village Council, Fiscal Year Ended September 30, 2001 (04/24/2002)
2002-P-0481 Naknek Native Village Council, Fiscal Year Ended September 30, 2002 (04/24/2002)
2002-P-0482 Native Village of Nunapitchuk, Fiscal Year Ended December 31, 2000 (04/24/2002)
            *$1,210
2002-P-0483 Native Village of Nunapitchuk, Fiscal Year Ended December 31, 2001 (04/24/2002)
2002-P-0484 Native Village of Nunapitchuk, Fiscal Year Ended December 31, 2002 (04/24/2002)
2002-P-0485 Native Village of Mekoryuk, Fiscal Year Ended December 31, 2003 (04/24/2002)
2002-P-0490 Pueblo of Laguna Department of Education, Fiscal Year Ended June 30, 2001
            (04/26/2002)
2002-P-0491 Pueblo of Laguna Department of Education, Fiscal Year Ended June 30, 2002
            (04/26/2002)
2002-P-0492 Upper Sioux Community, Fiscal Year Ended September 30, 2000 (04/29/2002)
2002-P-0493 Upper Sioux Community, Fiscal Year Ended September 30, 2001 (04/29/2002)
2002-P-0494 Upper Sioux Community, Fiscal Year Ended September 30, 2002 (04/29/2002)
2002-P-0495 Columbia River Inter-Tribal Fish Commission, Fiscal Year Ended December 31, 2000
            (04/30/2002) *$6,665
2002-P-0496 Columbia River Inter-Tribal Fish Commission, Fiscal Year Ended December 31, 2001
            (04/30/2002)
2002-P-0497 San Carlos Apache Tribe, Fiscal Year Ended September 30, 1998 (05/03/2002)
2002-P-0498 San Carlos Apache Tribe, Fiscal Year Ended September 30, 2000 (05/03/2002)
2002-P-0499 San Carlos Apache Tribe, Fiscal Year Ended September 30, 2001 (05/03/2002)
2002-P-0500 Gila River Indian Community, Fiscal Year Ended September 30, 2001 (05/06/2002)
            *$24,826
2002-P-0501 Yurok Tribe, Fiscal Year Ended September 30, 2002 (05/06/2002)
2002-P-0503 Lower Brule Sioux Tribe, Fiscal Year Ended September 30, 2000 (05/08/2002)
            *$463,776
2002-P-0504 Lower Brule Sioux Tribe, Fiscal Year Ended September 30, 2001 (05/08/2002)
            *$536,606
2002-P-0505 Tonkawa Tribe of Oklahoma, Fiscal Year Ended December 31, 2002 (05/08/2002)
            *$36,267
2002-P-0506 Pueblo of Picuris, Fiscal Year Ended December 31, 1996 (05/08/2002)
2002-P-0507 Pueblo of Picuris, Fiscal Year Ended December 31, 1998 (05/08/2002) *$6,084
2002-P-0508 Louden Tribal Council, Fiscal Year Ended December 31, 2001 (05/08/2002) *$56,011
2002-P-0509 Louden Tribal Council, Fiscal Year Ended December 31, 2002 (05/08/2002)
2002-P-0511 Forest County Potawatomi Community, Fiscal Year Ended September 30, 2002
            (05/14/2002) *$1,132
2002-P-0512 Minnesota Chippewa Tribe, Fiscal Year Ended September 30, 2002 (05/14/2002)
2002-P-0514 Northwestern Band of the Shoshoni Nation, Calendar Year Ended December 31, 1998
            (05/15/2002) *$47,530


        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                              47
Appendix 2 (continued)



2002-P-0515 Northwestern Band of the Shoshoni Nation, Calendar Year Ended December 31, 1999
            (05/15/2002) *$126,219
2002-P-0516 Northwestern Band of the Shoshone Nation, Calendar Year Ended December 31, 2000
            (05/15/2002)
2002-P-0517 Northwestern Band of the Shoshone Nation, Calendar Year Ended December 31, 2001
            (05/15/2002)
2002-P-0518 Native Village of Kiana, Fiscal Year Ended December 31, 2003 (05/15/2002)
2002-P-0519 Native Village of Kiana, Fiscal Year Ended December 31, 2004 (05/15/2002)
2002-P-0520 Emmonak Tribal Council, Fiscal Year Ended December 31, 2001 (05/15/2002)
2002-P-0521 Emmonak Tribal Council, Fiscal Year Ended December 31, 2002 (05/15/2002)
2002-P-0522 Pascua Yaqui Tribe, Fiscal Year Ended September 30, 2002 (05/15/2002)
2002-P-0523 Cloverdale Rancheria, Fiscal Year Ended December 31, 2001 (05/15/2002)
2002-P-0524 Cloverdale Rancheria, Fiscal Year Ended December 31, 2002 (05/15/2002)
2002-P-0525 Big Lagoon Rancheria, Fiscal Year Ended December 31, 1993 (05/17/2002)
2002-P-0526 Big Lagoon Rancheria, Fiscal Year Ended December 31, 1994 (05/17/2002)
2002-P-0527 Big Lagoon Rancheria, Fiscal Year Ended December 31, 1995 (05/17/2002)
2002-P-0528 Big Lagoon Rancheria, Fiscal Year Ended December 31, 1996 (05/17/2002)
2002-P-0529 Big Lagoon Rancheria, Fiscal Year Ended December 31, 1997 (05/17/2002)
2002-P-0530 Big Lagoon Rancheria, Fiscal Year Ended December 31, 1998 (05/17/2002)
2002-P-0531 Big Lagoon Rancheria, Fiscal Year Ended December 31, 1999 (05/17/2002)
2002-P-0532 Big Lagoon Rancheria, Fiscal Year Ended December 31, 2000 (05/17/2002)
2002-P-0533 Big Lagoon Rancheria, Fiscal Year Ended December 31, 2001 (05/17/2002)
2002-P-0534 Menominee Indian Tribe of Wisconsin, Fiscal Year Ended September 30, 2001 (Revised)
            (05/20/2002)
2002-P-0535 Santa Clara Indian Pueblo, Fiscal Year Ended December 31, 1998 (05/20/2002)
            *$17,995
2002-P-0536 Santa Clara Indian Pueblo, Fiscal Year Ended December 31, 1999 (05/20/2002)
            *$18,789
2002-P-0537 Santa Clara Indian Pueblo, Fiscal Year Ended December 30, 2000 (05/20/2002)
            *$59,210
2002-P-0538 Santa Clara Indian Pueblo, Fiscal Year Ended December 31, 2001 (05/20/2002)
2002-P-0539 Santa Clara Indian Pueblo, Fiscal Year Ended December 31, 2002 (05/20/2002) *$1,307
2002-P-0540 Chitimacha Tribe of Louisiana, Fiscal Year Ended September 30, 2001 (05/21/2002)
2002-P-0541 Chitimacha Tribe of Louisiana, Fiscal Year Ended September 30, 2002 (05/21/2002)
            *$145
2002-P-0542 St. Croix Tribal Council, Fiscal Year Ended September 30, 2001 (05/22/2002) *$11,309
2002-P-0543 Muscogee (Creek) Nation, Division of Health Administration, Fiscal Year Ended
            September 30, 2000 (05/22/2002) *$46,735
2002-P-0544 Muscogee (Creek) Nation, Division of Health Administration, Fiscal Year Ended
            September 30, 2001 (05/22/2002) *$110,258
2002-P-0545 Lac Vieux Desert Band of Lake Superior Chippewa Indians, Fiscal Year Ended
            December 31, 2001 (05/22/2002)

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               48
                                                                            Appendix 2 (continued)




2002-P-0546   Hopi Tribe, Fiscal Year Ended November 30, 2000 (05/23/2002) *$115,253
2002-P-0547   Hopi Tribe, Fiscal Year Ended November 30, 2001 (05/23/2002)
2002-P-0549   Hoopa Valley Tribe, Fiscal Year Ended September 30, 1999 (05/23/2002) *$42,982
2002-P-0550   Ouzinkie Tribal Council, Fiscal Year Ended September 30, 2001 (05/23/2002)
2002-P-0551   Ouzinkie Tribal Council, Fiscal Year Ended September 30, 2002 (05/23/2002)
2002-P-0552   Jamestown S’Klallam Tribe, Fiscal Year Ended September 30, 2002 (05/23/2002)
2002-P-0553   Pit River Tribe of California, Fiscal Year Ended December 31, 2002 (05/23/2002)
2002-P-0554   Karuk Tribe of California, Fiscal Year Ended September 30, 1999 (05/23/2002)
              *$470,461
2002-P-0555   Karuk Tribe of California, Fiscal Year Ended September 30, 2000 (05/23/2002)
              *$453,686
2002-P-0556   Pleasant Point Passamaquoddy Tribal Council, Fiscal Year Ended September 30, 1996
              (05/28/2002)
2002-P-0557   Pleasant Point Passamaquoddy Tribal Council, Fiscal Year Ended September 30, 1997
              (05/28/2002)
2002-P-0558   Shoonaq’ Tribe of Kodiak, Fiscal Year Ended September 30, 2002 (05/28/2002)
2002-P-0559   Native Village of Kotzebue, Fiscal Year Ended December 31, 2002 (05/28/2002)
2002-P-0560   Seldovia Village Tribe, Fiscal Year Ended September 30, 2002 (05/28/2002)
2002-P-0561   Seldovia Village Tribe, Fiscal Year Ended September 30, 2000 (05/28/2002)
2002-P-0562   Makah Tribal Council, Fiscal Year Ended December 31, 2002 (05/28/2002)
2002-P-0564   Ottawa Tribe of Oklahoma, Fiscal Year Ended September 30, 2001 (05/30/2002)
2002-P-0565   Ottawa Tribe of Oklahoma, Fiscal Year Ended September 30, 2002 (05/30/2002)
2002-P-0567   Pueblo De Cochiti, Fiscal Year Ended December 31, 1999 (05/30/2002)
2002-P-0568   Pueblo De Cochiti, Fiscal Year Ended December 31, 2000 (05/30/2002)
2002-P-0569   Pueblo De Cochiti, Fiscal Year Ended December 31, 2001 (05/30/2002)
2002-P-0570   Great Lakes Indian Fish and Wildlife Commission, Fiscal Year Ended
              December 31, 2002 (05/30/2002) *$7,904
2002-P-0571   Coeur D’Alene Tribe, Fiscal Year Ended September 30, 1999 (05/30/2002) *$9,398
2002-P-0572   Coeur D’Alene Tribe, Fiscal Year Ended September 30, 2000 (05/30/2002) *$22,422
2002-P-0573   Pueblo of Isleta, Fiscal Year Ended December 31, 1995 (05/30/2002)
2002-P-0574   Pueblo of Isleta, Fiscal Year Ended December 31, 1996 (05/30/2002)
2002-P-0575   Pueblo of Isleta, Fiscal Year Ended December 31, 1997 (05/30/2002)
2002-P-0576   Pueblo of Isleta, Fiscal Year Ended December 31, 1998 (05/30/2002)
2002-P-0577   Pueblo of Isleta, Fiscal Year Ended December 31, 1999 (05/30/2002)
2002-P-0578   Pueblo of Isleta, Fiscal Year Ended December 31, 2000 (05/30/2002)
2002-P-0579   Coeur D’Alene Tribe, Fiscal Year Ended September 30, 2001 (05/30/2002) *$451
2002-P-0580   Coeur D’Alene Tribe, Fiscal Year Ended September 30, 2002 (05/30/2002) *$243,065
2002-P-0581   Bishop Paiute Tribe, Fiscal Year Ended December 31, 2002 (05/30/2002) *$23,246
2002-P-0583   Port Gamble S’Klallam Tribe, Fiscal Year Ended December 31, 2001 (05/30/2002)
              *$608,779
2002-P-0584   Port Gamble S’Klallam Tribe, Fiscal Year Ended December 31, 2002 (05/30/2002)
              *$612,790

       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               49
Appendix 2 (continued)




2002-P-0587 San Pasqual Band of Diegueno Indians, Fiscal Year Ended December 31, 2001
            (05/31/2002)
2002-P-0588 Chickasaw Nation, Fiscal Year Ended September 30, 2002 (06/04/2002)
2002-P-0589 Rosebud Sioux Tribe, Fiscal Year Ended September 30, 2001 (06/04/2002) *$52,164
2002-P-0590 Quapaw Tribe, Fiscal Year Ended September 30, 2000 (06/05/2002) *$57,295
2002-P-0591 Quapaw Tribe, Fiscal Year Ended September 30, 2001 (06/05/2002) *$38,878
2002-P-0592 Quapaw Tribe, Fiscal Year Ended September 30, 2002 (06/05/2002) *$118,560
2002-P-0593 Turtle Mountain Band of Chippewa, Fiscal Year Ended September 30, 2002 (06/05/2002)
2002-P-0594 Sinte Gleska University, Fiscal Year Ended September 30, 2002 (06/05/2002) *$61,998
2002-P-0595 Inupiat Community of the Arctic Slope, Fiscal Year Ended December 31, 2002.
            (06/05/2002)
2002-P-0596 Asa’Carsarmiut Tribal Council, Fiscal Year Ended December 31, 2001 (06/05/2002)
2002-P-0597 Asa’Carsarmiut Tribal Council, Fiscal Year Ended December 31, 2002 (06/05/2002)
2002-P-0598 Tule River Indian Tribe, Fiscal Year Ended September 30, 1999 (06/05/2002)
2002-P-0599 Tule River Indian Tribe, Fiscal Year Ended September 30, 2000 (06/05/2002)
2002-P-0600 Tule River Indian Tribe, Fiscal Year Ended September 30, 2001 (06/05/2002) *$26,977
2002-P-0601 Tule River Indian Tribe, Fiscal Year Ended September 30, 2002 (06/05/2002) *$17,373
2002-P-0605 Blackfeet Nation, Fiscal Year Ended September 30, 2000 (06/12/2002) *$118,500
2002-P-0606 Oglala Sioux Tribe, Fiscal Year Ended December 31, 1997 (06/12/2002)
2002-P-0607 Oglala Sioux Tribe, Fiscal Year Ended December 31, 1998 (06/12/2002)
2002-P-0608 Oglala Sioux Tribe, Fiscal Year Ended December 31, 1999 (06/12/2002) *$983,963
2002-P-0611 Guidiville Rancheria, Calendar Year Ended December 31, 2001 (06/12/2002)
2002-P-0612 Guidiville Rancheria, Calendar Year Ended December 31, 2002 (06/12/2002)
2002-P-0613 Klamath Tribal Health and Family Services, Fiscal Year Ended December 31, 2001
            (06/12/2002) *$5,061
2002-P-0614 Klamath Tribal Health and Family Services, Fiscal Year Ended December 31, 2002
            (06/12/2002)
2002-P-0615 Confederated Tribes of the Umatilla Indian Reservation, Fiscal Year Ended
            December 31, 2001 (06/12/2002)
2002-P-0616 Klamath Tribes, Fiscal Year Ended December 31, 1999 (08/27/2002) *$345,199
2002-P-0617 Fort Belknap Indian Community, Fiscal Year Ended September 30, 2001 (06/18/2002)
            *$125,629
2002-P-0618 Tulalip Tribes of Washington, Fiscal Year Ended December 31, 2001 (06/18/2002)
            *$91,916
2002-P-0619 Tulalip Tribes of Washington, Fiscal Year Ended December 31, 2002 (06/18/2002)
2002-P-0624 Cankdeska Cikana (Little Hoop) Community College, Fiscal Year Ended
            September 30, 2000 (06/26/2002)
2002-P-0625 Cankdeska Cikana (Little Hoop) Community College, Fiscal Year Ended
            September 30, 2001 (06/26/2002)
2002-P-0626 Cankdeska Cikana (Little Hoop) Community College, Fiscal Year Ended
            September 30, 2002 (06/26/2002)
2002-P-0627 Ely Shoshone Tribe, Fiscal Year Ended December 31, 2002 (06/26/2002) *$51,462

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                              50
                                                                         Appendix 2 (continued)




2002-P-0628 Burns Paiute Tribe, Fiscal Year Ended December 31, 2002 (06/26/2002) *$92,125
2002-P-0629 Washoe Tribe of Nevada and California, Fiscal Year Ended December 31, 1999
            (07/01/2002) *$286
2002-P-0630 Washoe Tribe of Nevada and California, Fiscal Year Ended December 31, 2000
            (07/01/2002)
2002-P-0631 Washoe Tribe of Nevada and California, Fiscal Year Ended December 31, 2001
            (07/01/2002) *$20,646
2002-P-0633 Yavapai-Prescott Indian Tribe, Fiscal Year Ended December 31, 2001 (07/01/2002)
2002-P-0634 Kaibab Band of Paiute Indians, Fiscal Year Ended December 31, 2002 (07/01/2002)
2002-P-0635 Grand Portage Reservation, Fiscal Year Ended December 31, 2002 (07/01/2002)
2002-P-0636 Menominee Tribal Enterprises, Fiscal Year Ended June 30, 2001 (07/08/2002)
2002-P-0638 Tuluksak Native Community, Fiscal Year Ended December 31, 2001 (07/08/2002)
2002-P-0639 Tuluksak Native Community, Fiscal Year Ended December 31, 2002 (07/08/2002)
2002-P-0640 Ramah Navajo Chapter, Fiscal Year Ended December 31, 1999 (07/08/2002) *$304,061
2002-P-0643 Coast Indian Community of the Resighini Rancheria, Fiscal Year Ended
            December 31, 2001 (07/08/2002) *$26,203
2002-P-0644 Coast Indian Community of the Resighini Rancheria, Fiscal Year Ended
            December 31, 2002 (07/08/2002) *$8,582
2002-P-0645 Middletown Rancheria of Pomo Indians, Fiscal Year Ended December 31, 2001
            (07/08/2002)
2002-P-0646 Middletown Rancheria of Pomo Indians, Fiscal Year Ended December 31, 2002
            (07/08/2002)
2002-P-0647 Confederated Tribes of the Warm Springs Reservation, Fiscal Year Ended
            December 31, 2002 (07/08/2002)
2002-P-0650 Ponca Tribe of Nebraska, Fiscal Year Ended September 30, 2001 (07/09/2002)
2002-P-0651 Ponca Tribe of Nebraska, Fiscal Year Ended September 30, 2002 (07/09/2002)
2002-P-0652 Great Lakes Inter-Tribal Council, Inc., Fiscal Year Ended September 30, 2002
            (07/11/2002)
2002-P-0653 Yakutat Tlingit Tribe, Fiscal Year Ended December 31, 2002 (07/11/2002) *$52,437
2002-P-0654 Chilkat Indian Village, Fiscal Year Ended December 31, 2002 (07/11/2002) *$7,196
2002-P-0655 Chilkat Indian Village, Fiscal Year Ended December 31, 2003 (07/11/2002)
2002-P-0657 Otoe-Missouria Tribe of Indians, Fiscal Year Ended December 31, 2000 (07/15/2002)
2002-P-0658 Otoe-Missouria Tribe of Indians, Fiscal Year Ended December 31, 2001 (07/15/2002)
2002-P-0659 Otoe-Missouria Tribe of Indians, Fiscal Year Ended December 31, 2002 (07/15/2002)
2002-P-0660 Eastern Shawnee Tribe of Oklahoma, Fiscal Year Ended September 30, 1997
            (07/15/2002) *$37,794
2002-P-0661 Eastern Shawnee Tribe of Oklahoma, Fiscal Year Ended September 30, 1998
            (07/15/2002) *$52,815
2002-P-0662 Eastern Shawnee Tribe of Oklahoma, Fiscal Year Ended September 30, 1999
            (07/15/2002) *$33,483
2002-P-0663 Eastern Shawnee Tribe of Oklahoma, Fiscal Year Ended September 30, 2000
            (07/15/2002) *$48,519

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                             51
Appendix 2 (continued)




2002-P-0664 Eastern Shawnee Tribe of Oklahoma, Fiscal Year Ended September 30, 2001
            (07/15/2002) *$14,044
2002-P-0665 Eastern Shawnee Tribe of Oklahoma, Fiscal Year Ended September 30, 2002
            (07/15/2002)
2002-P-0666 Canoncito Band of Navajo, Fiscal Year Ended September 30, 2001 (07/15/2002)
2002-P-0667 Chippewa Cree Tribe of the Rocky Boy’s Reservation, Fiscal Year Ended
            September 30, 2002 (07/15/2002)
2002-P-0668 Standing Rock Sioux Tribe, Fiscal Year Ended September 30, 2000 (07/16/2002)
2002-P-0669 Standing Rock Sioux Tribe, Fiscal Year Ended September 30, 2002 (07/16/2002)
2002-P-0670 Muscogee (Creek) Nation, Division of Health Administration, Fiscal Year Ended
            September 30, 2002 (07/16/2002)
2002-P-0674 Maine Indian Education, Fiscal Year Ended June 30, 1999 (07/17/2002)
2002-P-0675 San Juan Pueblo, Fiscal Year Ended December 31, 2001 (07/17/2002)
2002-P-0676 San Juan Pueblo, Fiscal Year Ended December 31, 2002 (07/17/2002) *$49,125
2002-P-0677 Cheyenne River Sioux Tribe, Fiscal Year Ended September 30, 2000 (07/17/2002)
            *$79,632
2002-P-0678 Seminole Indian Tribe, Fiscal Year Ended June 30, 1997 (07/22/2002)
2002-P-0679 Seminole Indian Tribe, Fiscal Year Ended June 30, 1998 (07/22/2002)
2002-P-0680 Seminole Indian Tribe, Fiscal Year Ended June 30, 1999 (07/22/2002)
2002-P-0681 Seminole Indian Tribe, Fiscal Year Ended June 30, 2000 (07/22/2002)
2002-P-0682 Seminole Indian Tribe, Fiscal Year Ended June 30, 2001 (07/22/2002)
2002-P-0683 Seminole Indian Tribe, Fiscal Year Ended June 30, 2002 (07/22/2002)
2002-P-0685 Saint Stephens Indian School, Fiscal Year Ended June 30, 2003 (07/22/2002)
2002-P-0686 Penobscot Nation, Fiscal Year Ended September 30, 2001 (07/22/2002)
2002-P-0687 Penobscot Nation, Fiscal Year Ended September 30, 2002 (07/22/2002)
2002-P-0688 Alabama-Quassarte Tribal Town, Fiscal Year Ended September 30, 2001 (07/22/2002)
2002-P-0689 Alabama/Quassarte Tribal Town, Fiscal Year Ended September 30, 2002 (07/22/2002)
2002-P-0691 Spokane Tribe of Indians, Fiscal Year Ended September 30, 2000 (07/23/2002)
2002-P-0692 Spokane Tribe of Indians, Fiscal Year Ended September 30, 2001 (07/23/2002)
2002-P-0693 Spokane Tribe of Indians, Fiscal Year Ended September 30, 2002 (07/23/2002)
2002-P-0698 Canoncito Band of Navajos, Fiscal Year Ended September 30, 2002 (08/13/2002)
2002-P-0699 Miccosukee Corporation, Fiscal Year Ended September 30, 2001 (07/30/2002)
            *$418,776
2002-P-0700 Miccosukee Corporation, Fiscal Year Ended September 30, 2002 (07/30/2002)
            *$229,794
2002-P-0702 Cheesh’na Tribal Council (formerly Chistochina Village), Fiscal Year Ended
            September 30, 2000 (07/30/2002)
2002-P-0703 Cheesh’na Tribal Council, Fiscal Year Ended September 30, 2001 (07/30/2002)
2002-P-0704 Cheesh’na Tribal Council, Fiscal Year Ended September 30, 2002 (07/30/2002)
2002-P-0705 Cheesh’na Tribal Council, Fiscal Year Ended September 30, 2003 (07/30/2002)
2002-P-0708 Fairbanks Native Association, Fiscal Year Ended June 30, 2001 (07/31/2002)
2002-P-0709 Fairbanks Native Association, Fiscal Year Ended June 30, 2002 (07/31/2002)

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                              52
                                                                           Appendix 2 (continued)




2002-P-0710 Northern Cheyenne Tribe, Inc., Fiscal Year Ended September 30, 1999 (08/05/2002)
            *$366,325
2002-P-0713 Passamaquoddy Indian Township Tribal Government, Fiscal Year Ended
            September 30, 1999 (08/06/2002)
2002-P-0714 Passamaquoddy Indian Township Tribal Government, Fiscal Year Ended
            September 30, 2000 (08/06/2002)
2002-P-0715 Passamaquoddy Indian Township Tribal Government, Fiscal Year Ended
            September 30, 2001 (08/06/2002)
2002-P-0716 Passamaquoddy Indian Township Tribal Government, Fiscal Year Ended
            September 30, 2002 (08/06/2002)
2002-P-0717 Oglala Lakota College, Fiscal Year Ended September 30, 2002 (08/06/2002)
2002-P-0718 Pueblo of Acoma, Fiscal Year Ended December 31, 2001 (08/06/2002) *$78,082
2002-P-0721 Turtle Mountain Community College, Fiscal Year Ended September 30, 2000 (08/06/2002)
            *$277,543
2002-P-0722 Turtle Mountain Community College, Fiscal Year Ended September 30, 2001 (08/06/2002)
            *$358,515
2002-P-0723 Pueblo de Cochiti, Fiscal Year Ended December 31, 2002 (08/06/2002)
2002-P-0724 Sherwood Valley Rancheria, Fiscal Year Ended December 31, 2002 (08/06/2002)
2002-P-0725 Native Village of Barrow, Fiscal Year Ended December 31, 1999 (08/06/2002) *$13,749
2002-P-0726 Native Village of Barrow, Fiscal Year Ended December 31, 2001 (08/06/2002) *$16,800
2002-P-0727 San Xavier District, Fiscal Year Ended September 30, 2000 (08/06/2002) *$10,329
2002-P-0731 Eastern Band of Cherokee Indians, Fiscal Year Ended September 30, 2000 (08/07/2002)
2002-P-0732 Eastern Band of Cherokee Indians, Fiscal Year Ended September 30, 2001 (08/07/2002)
2002-P-0733 Eastern Band of Cherokee Indians, Fiscal year Ended September 30, 2002 (08/07/2002)
2002-P-0735 Cheyenne-Arapaho Tribes of Oklahoma, Fiscal Year Ended December 31, 1999
            (08/12/2002)
2002-P-0736 Cheyenne-Arapaho Tribes of Oklahoma, Fiscal Year Ended December 31, 2000
            (08/12/2002)
2002-P-0737 Cheyenne-Arapaho Tribes of Oklahoma, Fiscal Year Ended December 31, 2001
            (08/12/2002)
2002-P-0738 Quinault Indian Nation, Fiscal Year Ended September 30, 2002 (08/12/2002) *$80,373
2002-P-0739 Caddo Indian Tribe of Oklahoma, Fiscal Year Ended September 30, 1998 (08/13/2002)
2002-P-0740 Caddo Indian Tribe of Oklahoma, Fiscal Year Ended September 30, 1999 (08/13/2002)
            *$115
2002-P-0741 Caddo Indian Tribe of Oklahoma, Fiscal Year Ended September 30, 2000 (08/13/2002)
2002-P-0742 Caddo Indian Tribe of Oklahoma, Fiscal Year Ended September 30, 2001 (08/13/2002)
2002-P-0743 Caddo Indian Tribe of Oklahoma, Fiscal Year Ended September 30, 2002 (08/13/2002)
2002-P-0744 Bad River Band of Lake Superior Tribe of Chippewa Indians, Fiscal Year Ended
            September 30, 1999 (08/14/2002)
2002-P-0745 Bad River Band of Lake Superior Tribe of Chippewa Indians, Fiscal Year Ended
            September 30, 2000 (08/14/2002)


        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                              53
Appendix 2 (continued)



2002-P-0746 Bad River Band of Lake Superior Tribe of Chippewa Indians, Fiscal Year Ended
            September 30, 2001 (08/14/2002)
2002-P-0747 Bad River Band of Lake Superior Tribe of Chippewa Indians, Fiscal Year Ended
            September 30, 2002 (08/14/2002)
2002-P-0748 Saginaw Chippewa Indian Tribe of Michigan, Fiscal Year Ended September 30, 2001
            (08/19/2002) *$57,532
2002-P-0749 Saginaw Chippewa Indian Tribe of Michigan, Fiscal Year Ended September 30, 2002
            (08/19/2002) *$48,270
2002-P-0750 Eastern Shoshone Tribe of the Wind River Reservation, Fiscal Year Ended
            December 31, 2002 (08/20/2002)
2002-P-0751 Cocopah Indian Tribe, Fiscal Year Ended December 31, 1998 (08/22/2002)
2002-P-0752 Cocopah Indian Tribe, Fiscal Year Ended December 31, 1999 (08/22/2002)
2002-P-0753 Cocopah Indian Tribe, Fiscal Year Ended December 31, 2000 (08/22/2002)
2002-P-0754 Cocopah Indian Tribe, Fiscal Year Ended December 31, 2001 (08/22/2002)
2002-P-0757 Pueblo of San Felipe, Fiscal Year Ended December 31, 2002 (08/26/2002) *$3,115
2002-P-0758 Santa Fe Indian School, Fiscal Year Ended June 30, 1998 (08/27/2002) *$283,097
2002-P-0759 Santa Fe Indian School, Fiscal Year Ended June 30, 1999 (08/27/2002) *$20,455
2002-P-0760 Santa Fe Indian School, Fiscal Year Ended June 30, 2000 (08/27/2002)
2002-P-0762 Fort Sill - Chiricahua - Warm Springs - Apache Tribe, Fiscal Year Ended
            December 31, 2002 (08/28/2002)
2002-P-0763 Confederated Tribes of Siletz Indians, Fiscal Year Ended December 31, 2002
            (08/28/2002) *$25,236
2002-P-0770 Hannahville Indian Community, Fiscal Year Ended September 30, 2002 (09/04/2002)
2002-P-0773 Oglala Sioux Parks and Recreation Authority, Fiscal Year Ended December 31, 1995
            (09/05/2002)
2002-P-0774 Oglala Sioux Parks and Recreation Authority, Fiscal Year Ended December 31, 1996
            (09/05/2002)
2002-P-0775 Oglala Sioux Parks and Recreation Authority, Fiscal Year Ended
            December 31, 1997 (09/05/2002)
2002-P-0776 Oglala Sioux Parks and Recreation Authority, Fiscal Year Ended December 31, 1998
            (09/05/2002)
2002-P-0778 Akiachak Native Community, Fiscal Year Ended December 31, 1997 (09/09/2002)
2002-P-0779 Akiachak Native Community, Fiscal Year Ended December 31, 1998 (09/09/2002)
2002-P-0780 Akiachak Native Community, Fiscal Year Ended December 31, 1999 (09/09/2002)
2002-P-0781 Akiachak Native Community, Fiscal Year Ended December 31, 2000 (09/09/2002)
2002-P-0782 Akiachak Native Community, Fiscal Year Ended December 31, 2001 (09/09/2002)
2002-P-0783 Akiachak Native Community, Fiscal Year Ended December 31, 2002 (09/09/2002)
2002-P-0784 Ramah Navajo Chapter, Fiscal Year Ended December 31, 2000 (09/12/2002)
2002-P-0785 Ramah Navajo Chapter, Fiscal Year Ended December 31, 2001 (09/12/2002)
2002-P-0786 Ramah Navajo Chapter, Fiscal Year Ended December 31, 2002 (09/12/2002)
2002-P-0787 Sitting Bull College, Fiscal Year Ended June 30, 2002 (09/17/2002) *$14,030


        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               54
                                                                              Appendix 2 (continued)



2002-P-0788 Bear River Band of Rohnerville Rancheria, Fiscal Year Ended December 31, 2002
            (09/17/2002)
2002-P-0789 Cortina Indian Rancheria of Wintun Indians, Fiscal Year Ended December 31, 2001
            (09/17/2002)
2002-P-0790 Iliamna Village Council, Fiscal Year Ended September 30, 2002 (09/17/2002) *$26,589
2002-P-0791 Iliamna Village Council, Fiscal Year Ended September 30, 2003 (09/17/2002)
2002-P-0793 Native Village of Fort Yukon, Fiscal Year Ended December 31, 1998 (09/18/2002)
2002-P-0794 Native Village of Fort Yukon, Fiscal Year Ended December 31, 1999 (09/18/2002)
2002-P-0795 Native Village of Fort Yukon, Fiscal Year Ended December 31, 2000 (09/18/2002)
2002-P-0796 Native Village of Fort Yukon, Fiscal Year Ended December 31, 2001 (09/18/2002)
2002-P-0797 Native Village of Fort Yukon, Fiscal Year Ended December 31, 2002 (09/18/2002)
2002-P-0801 Walker River Paiute Tribe, Fiscal Year Ended December 31, 2000 (09/20/2002)
            *$28,700
2002-P-0802 Duckwater Shoshone Tribe, Fiscal Year Ended December 31, 2000 (09/20/2002)
2002-P-0803 Duckwater Shoshone Tribe, Fiscal Year Ended December 31, 2002 (09/20/2002)
            *$64,800
2002-P-0804 Igiugig Village Council, Fiscal Year Ended September 30, 2004 (09/20/2002)
2002-P-0805 Igiugig Village Council, Fiscal Year Ended September 30, 2003 (09/20/2002)
2002-P-0806 Kenaitze Indian Tribe (IRA), Fiscal Year Ended September 30, 2000 (09/20/2002)
2002-P-0807 Kenaitze Indian Tribe (IRA), Fiscal Year Ended September 30, 2002 (09/20/2002)
2002-P-0808 Kenaitze Indian Tribe (IRA), Fiscal Year Ended September 30, 2001 (09/20/2002)
2002-P-0810 Seneca Nation of Indians, Fiscal Year Ended September 30, 2001 (09/24/2002)
2002-P-0811 Seneca Nation of Indians, Fiscal Year Ended September 30, 2002 (09/24/2002)
2002-P-0812 Crow Tribe of Indians, Fiscal Year Ended September 30, 1999 (09/25/2002)
2002-P-0813 Crow Tribe of Indians, Fiscal Year Ended September 30, 2001 (09/25/2002) *$240,802
2002-P-0814 Intertribal Council of Michigan, Inc., Fiscal Year Ended September 30, 2002 (09/25/2002)
            *$2,798
2002-P-0815 United Sioux Tribes of South Dakota, Fiscal Year Ended September 30,1997
            (09/25/2002)
2002-P-0816 United Sioux Tribes of South Dakota, Fiscal Year Ended September 30, 1998
            (09/25/2002) *$7,170
2002-P-0817 United Sioux Tribes of South Dakota, Fiscal Year Ended September 30, 1999
            (09/25/2002) *$7,228
2002-P-0818 United Sioux Tribes of South Dakota, Fiscal Year Ended September 30, 2000
            (09/25/2002) *$31,443
2002-P-0819 United Sioux Tribes of South Dakota, Fiscal Year Ended September 30, 2001
            (09/25/2002) *$9,776
2002-P-0820 Leech Lake Band of Ojibwe, Fiscal Year Ended June 30, 2002 (09/26/2002) *$147,457




        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 55
Appendix 2 (continued)


Bureau of Reclamation

2002-P-0771 North Dakota State Water Commission, Fiscal Year Ended June 30, 2003 (09/04/2002)

Marshall Islands

2002-P-0695 Republic of the Marshall Islands, Fiscal Year Ended September 30, 2000 (07/24/2002)

Minerals Management Service

2002-P-0694 Colorado Department of Revenue, Fiscal Year Ended June 30, 2003 (07/23/2002)

Multi-Office

2002-P-0428 Oregon Department of Geology and Mineral Industries, Fiscal Year Ended
            June 30, 2003 (04/03/2002)
2002-P-0455 Utah Department of Community and Economic Development, Division of State History,
            Fiscal Year Ended June 30, 2002 (04/16/2002)
2002-P-0513 Utah Department of Natural Resource, Division of Oil, Gas and Mining, Fiscal Year Ended
            June 30, 2003 (05/15/2002)
2002-P-0563 Montana Historical Society, Fiscal Year Ended June 30, 2003 (05/28/2002)
2002-P-0582 Hawaii Department of Natural Resources, Fiscal Year Ended June 30, 2003 (05/30/2002)
2002-P-0585 Montana Department of Fish, Wildlife and Parks, Fiscal Year Ended June 30, 2003
            (05/30/2002)
2002-P-0602 Washington Department of Fish and Wildlife, Fiscal Year Ended June 30, 2003
            (06/05/2002)
2002-P-0609 NatureServe, Fiscal Year Ended June 30, 2003 (06/12/2002)
2002-P-0610 NatureServe, Fiscal Year Ended June 30, 2002 (06/12/2002)
2002-P-0620 Nevada Department of Conservation and Natural Resources, Division of Environmental
            Protection, Fiscal Year Ended June 30, 2003 (06/18/2002)
2002-P-0622 Idaho Fish and Game Department, Fiscal Year Ended June 30, 2003 (06/21/2002)
2002-P-0632 Oregon Department of Parks and Recreation, Fiscal Year Ended June 30, 2003
            (07/01/2002)
2002-P-0637 Arizona Department of Game and Fish, Fiscal Year Ended June 30, 2003 (07/08/2002)
2002-P-0701 Washington Interagency Committee for Outdoor Recreation, Fiscal Year Ended
            June 30, 2003 (07/30/2002)
2002-P-0706 Utah Department of Natural Resources, Geological Survey, Fiscal Year Ended
            June 30, 2003 (07/30/2002)
2002-P-0711 Washington Department of Ecology, Fiscal Year Ended June 30, 2003 (08/05/2002)
2002-P-0712 Idaho Department of Parks and Recreation, Fiscal Year Ended June 30, 2003
            (08/05/2002)
2002-P-0728 Sonoran Institute, Fiscal Year Ended June 30, 2002 (08/06/2002)

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                56
                                                                             Appendix 2 (continued)



2002-P-0755 Nevada Department of Conservation and Natural Resources, Division of Wildlife, Fiscal
            Year Ended June 30, 2001 (08/22/2002) *$145,177
2002-P-0764 Washington Parks and Recreation Commission, Fiscal Year Ended June 30, 2002
            (08/28/2002)
2002-P-0765 Washington Parks and Recreation Commission, Fiscal Year Ended June 30, 2003
            (08/28/2002)
2002-P-0767 California Department of Parks and Recreation, Fiscal Year Ended June 30, 2003
            (08/30/2002)
2002-P-0777 Idaho Historical Society, Fiscal Year Ended June 30, 2003 (09/24/2002)
2002-P-0792 California Department of Fish and Game, Fiscal Year Ended June 30, 2003 (09/17/2002)
2002-P-0809 Idaho Department of Water Resources, Fiscal Year Ended June 30, 2003 (09/06/2002)

National Park Service

2002-P-0412 Georgia Department of Natural Resources, Land and Water Conservation, Fiscal Year
            Ended September 30, 2002 (04/01/2002)
2002-P-0413 Georgia Department of Natural Resources, Land and Water Conservation Fund, Fiscal
            Year Ended September 30, 2003 (04/01/2002)
2002-P-0510 Arkansas Department of Parks and Tourism, Fiscal Year Ended June 30, 2003
            (05/08/2002)
2002-P-0566 New Mexico Department of Energy, Minerals and Natural Resources, Fiscal Year Ended
            June 30, 2003 (05/30/2002)
2002-P-0586 Minnesota Historical Society, Fiscal Year Ended June 30, 2003 (05/30/2002)
2002-P-0604 Pennsylvania Historical and Museum Commission, Fiscal Year Ended June 30, 2003
            (07/22/2002)
2002-P-0621 North Dakota Department of Parks and Recreation, Fiscal Year Ended June 30, 2003
            (06/18/2002)
2002-P-0656 Minnesota Department of Natural Resources, Fiscal Year Ended June 30, 2003
            (07/15/2002)
2002-P-0719 Ohio Historical Society, Fiscal Year Ended June 30, 2003 (08/06/2002)
2002-P-0798 National Trust for Historic Preservation, Fiscal Year Ended September 30, 2003
            (09/18/2002)
2002-P-0799 National Trust for Historic Preservation, Fiscal Year Ended September 30, 2004
            (09/18/2002)

Office of Surface Mining
2002-P-0623 West Virginia Department of Environmental Protection, Fiscal Year Ended
            June 30, 2003 (06/25/2002) *$402,214
2002-P-0641 Texas Railroad Commission, Fiscal Year Ended August 31, 2001 (07/08/2002)



        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                57
Appendix 2 (continued)



2002-P-0642 Texas Railroad Commission, Fiscal Year Ended August 31, 2002 (07/08/2002)
2002-P-0697 Virginia Department of Mines, Minerals, and Energy, Fiscal Year Ended June 30, 2003
            (07/25/2002)
2002-P-0720 Virginia Department of Conservation and Recreation, Fiscal Year Ended June 30, 2003
            (08/06/2002)

Palau

2002-P-0696 Republic of Palau, Indirect Cost Proposal, Fiscal Year Ended September 30, 2002
            (07/24/2002)

U.S. Fish and Wildlife Service

2002-P-0438 Michigan Department of Natural Resources, Fiscal Year Ended September 30, 2002
            (04/08/2002)
2002-P-0441 Massachusetts Executive Office of Environmental Affairs, Fiscal Year Ended
            June 30, 2002 (04/10/2002)
2002-P-0442 Missouri Department of Conservation, Fiscal Year Ended June 30, 2003 (04/10/2002)
2002-P-0474 Massachusetts Department of Environmental Management, Fiscal Year Ended
            June 30, 2002 (04/24/2002)
2002-P-0486 Massachusetts Department of Fisheries, Wildlife, and Environmental Law Enforcement,
            Fiscal Year Ended June 30, 2002 (04/25/2002)
2002-P-0487 Massachusetts Fisheries and Wildlife, Fiscal Year Ended June 30, 2002 (04/26/2002)
2002-P-0488 Massachusetts Division of Marine Fisheries, Fiscal Year Ended June 30, 2002
            (04/26/2002)
2002-P-0489 Massachusetts Fisheries and Wildlife and Environmental Law Enforcement, Fiscal Year
            Ended June 30, 2002 (04/26/2002)
2002-P-0603 New Hampshire Fish and Game Department, Fiscal Year Ended June 30, 2003
            (06/10/2002)
2002-P-0649 South Carolina Department of Natural Resources, Fiscal Year Ended June 30, 2003
            (07/09/2002)
2002-P-0671 Tennessee Wildlife Resources Agencies, Fiscal Year Ended June 30, 2002 (07/17/2002)
            *$467,385
2002-P-0672 Tennessee Wildlife Resources Agencies, Fiscal Year Ended June 30, 2003 (07/17/2002)
            *$409,064
2002-P-0673 South Dakota Department of Game, Fish and Parks, Fiscal Year Ended June 30, 2003
            (07/17/2002) *$12,718
2002-P-0684 Maryland Department of Natural Resources, Fiscal Year Ended June 30, 2003
            (07/22/2002)
2002-P-0690 West Virginia Department of Natural Resources, Fiscal Year Ended June 30, 2003
            (07/22/2002)

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                58
                                                                            Appendix 2 (continued)




2002-P-0707 Arkansas Game and Fish Commission, Fiscal Year Ended June 30, 2002 (07/31/2002)
2002-P-0729 Florida Fish and Wildlife Conservation Commission, Fiscal Year Ended June 30, 2003
            (08/07/2002)
2002-P-0730 Florida Fish and Wildlife Conservation Commission, Fiscal Year Ended June 30, 2004
            (08/07/2002)
2002-P-0734 Wisconsin Department of Natural Resources, Fiscal Year Ended June 30, 2003
            (08/12/2002)
2002-P-0756 Oklahoma Department of Wildlife Conservation, Fiscal Year Ended June 30, 2003
            (08/26/2002)
2002-P-0761 Colorado Department of Natural Resources, Fiscal Year Ended June 30, 2003
            (08/27/2002)
2002-P-0766 North Carolina Wildlife Resources Commission, Fiscal Year Ended June 30, 2003
            (08/30/2002)
2002-P-0768 North Dakota Department of Game and Fish, Fiscal Year Ended June 30, 2003
            (09/03/2002)
2002-P-0769 North Dakota Department of Game and Fish, Fiscal Year Ended June 30, 2004
            (09/03/2002)
2002-P-0772 Massachusetts Department of Food and Agriculture, Fiscal Year Ended June 30, 2003
            (09/04/2002)
2002-P-0800 New Mexico Department of Game and Fish, Fiscal Year Ended June 30, 2003
            (09/18/2002)

U.S. Geological Survey

2002-P-0648 Wyoming Geological Survey, Fiscal Year Ended June 30, 2003 (07/09/2002)




        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                59
                                                  Appendix 3


                       Monetary Impact of Audit Activities from
                       April 1, 2002 through September 30, 2002


                                               FUNDS TO BE
                                                  PUT TO
                                    QUESTIONED BETTER USE
          ACTIVITY                    COSTS      (* and **) REVENUES                    TOTAL

Bureau of Indian Affairs               $2,021,869          $11,267,055            0    $13,288,924

Bureau of Reclamation                      758,160                   0            0       758,160

Fish and Wildlife Service                1,797,643              889,167   $1,610,935     4,297,745

Insular Areas: **

   - Federated States
       of Micronesia                       329,504                   0            0       329,504

      -- Chuuk                              32,871                   0            0        32,871

   - Guam                                1,702,331              300,260           0      2,002,591

   - U.S. Virgin Islands                 2,738,741            2,553,732           0      5,292,473

Multi-office Audit                                 0            145,177           0       145,177

National Park Service                              0          2,852,732           0      2,852,732

Office of Surface Mining                      1,220             402,214           0       403,434

         TOTAL                         $9,382,339          $18,410,337    $1,610,935   $29,403,611


________________
* Includes monetary impact of indirect cost proposals negotiated.
** Includes monetary impact of non-Federal funds (see Appendix 4).




          Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                         60
                                      Appendix 4



              Non-Federal Funding Included in Monetary
             Impact of Audit Activities During the 6-Month
                Period that Ended September 30, 2002

No. 2002-I-0043   "Grants for the Construction of Health Care Facilities, Department of
                  Health Government of the Virgin Islands," dated September 20, 2002.
                  Of the $2,725,822 reported as monetary impact, $344,300 represents
                  Insular Area funds.


No. 2002-I-0046   "Professional Service Contracts, Government of the Virgin Islands," dated
                  September 20, 2002. All of the $1,224,791 reported as monetary impact,
                  represents Insular Area funds.




       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                            61
                                       AppenAppendix 5dix 51

                                                        Table I


           Inspector General Audit Reports with Questioned Costs*


                                                               Number of       Questioned       Unsupported
                                                                Reports          Costs             Costs

A. For which no management decision had been
   made by the commencement of the reporting                       85          $63,064,079            $369,488
   period.1
B.   Which were issued during the reporting
                                                                   37             8,142,941          2,692,431
     period.
              Total (A+B)                                         122          $71,207,020          $3,061,919



C. For which a management decision was made
                                                                   54          $31,705,783                        0
   during the reporting period.
        (i)   Dollar value of recommendations that
                                                                   51          $31,403,631                        0
              were agreed to by management.
        (ii) Dollar value of recommendations that
                                                                     3             $302,152                       0
             were not agreed to by management.


D. For which no management decision had been
                                                                   68          $39,501,237          $3,061,919
   made by the end of reporting period.


E.   For which no management decision was made
                                                                   88          $63,285,215            $369,488
     within 6 months of issuance.

_______________
* Unsupported costs are included in questioned costs.


1
 Amount does not agree with Appendix 3 "Monetary Impact of Audit Activities" because we did not include the
monetary amount of Insular Area government recommendations that related to local government funds ($1,149,791).
This amount is not subject to a Department of the Interior management decision.


         Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                          62
                                                Appendix 5

                                                    Table II

                     Inspector General Audit Reports with
                Recommendations that Funds Be Put to Better Use


                                                                         Number of
                                                                                          Dollar Value
                                                                          Reports
A. For which no management decision had been made by
   the commencement of the reporting period.                                   11             $28,845,215

B. Which were issued during the reporting period.1                            115              17,991,037*

              Total (A+B)                                                     126             $46,836,252




C. For which a management decision was made during the
   reporting period.                                                          111             $12,703,613*
        (i)   Dollar value of recommendations that were
              agreed to by management.                                        111             $12,703,613*
        (ii) Dollar value of recommendations that were not
             agreed to by management.                                           0                         0


D. For which no management decision had been made by
   the end of reporting period.                                                15             $34,132,639


E. For which no management decision was made within 6
   months of issuance.                                                         11             $28,845,215

_______________
* Amount includes indirect cost proposals negotiated.



1
 Amount does not agree with Appendix 3 "Monetary Impact of Audit Activities" because we did not include the
monetary amount of Insular Area government recommendations that related to local government funds ($419,300).
This amount is not subject to a Department of the Interior management decision.

        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                        63
                                     Appendix 5

                                      Table III

                   Inspector General Audit Reports with
                   Lost or Potential Additional Revenues


                                                          Number of
                                                           Reports    Dollar Value
A.   For which no management decision had been
     made by the commencement of the reporting              3          $49,760,930
     period.
B.   Which were issued during the reporting period.         1            1,610,935
     Total (A+B)                                            4          $51,371,765


C.   For which a management decision was made
                                                            0              0
     during the reporting period.
        (i)   Dollar value of recommendations that were
                                                            0              0
              agreed to by management.
        (ii) Dollar value of recommendations that were
                                                            0              0
             not agreed to by management.


D.   For which no management decision had been
                                                            1          $51,371,765
     made by the end of reporting period.


E.   For which no management decision was made
                                                            3          $49,760,930
     within 6 months of issuance.




     Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                           64
                                               Appendix 6


                    Summary of Audit Reports Over 6-Months Old
                         Pending Management Decisions

This listing includes a summary of internal, contract (except pre-awards), grant, and single audit reports that
were over 6 months old on September 30, 2002 and still pending a management decision. It provides
report number, title, issue date, number of unresolved recommendations, and unresolved amount of
monetary benefits identified in the audit report.

Internal Audits
Insular Areas

Guam

2001-I-0417     Loan Programs, Guam Economic Development Authority, Government of Guam
                (09/21/2001) 4 Recommendations and $7,995,752 Unresolved

Republic of the Marshall Islands

1999-I-0952     Marshall Islands Development Bank, Republic of the Marshall Islands
                (09/30/1999) 4 Recommendations and $382,888 Unresolved

Multi-Office

2001-I-0297     Audit Report on the Stripper Oil Well Property Royalty Rate Reduction Program
                (03/30/2001) 2 Recommendations Unresolved

Contract and Grant Audits
Bureau of Indian Affairs

1994-E-0784 Costs Claimed by Diversified Business Technologies Corporation Under Contract No.
            CBM000047 (06/10/1994) $825,170 Unresolved (Circumstances beyond the Bureau’s
            control have delayed resolution of the costs.)
1994-E-0919 Costs Claimed by Diversified Business Technologies Corporation Under Contract No.
            CBM000147 (06/30/1994) $247,414 Unresolved (Circumstances beyond the Bureau’s
            control have delayed resolution of the costs.)




         Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                      65
                                                                              Appendix 6 (continued)




Bureau of Reclamation

2000-E-0688 Interstate Electrical Contractor, Claims for Equitable Adjustment Submitted to Bureau of
            Reclamation Under Contract No. 1425-5-CC-40-17910 (09/18/2000) $982,917
            Unresolved
2001-E-0184 Mingus Constructors, Incorporated, Claim for Equitable Adjustment Submitted to Bureau
            of Reclamation Under Contract No. 1425-5-CC-40-17910 (02/14/2001) $725,790
            Unresolved
2001-E-0229 Sloat and Associates, Incorporated, Costs Claimed Under Bureau of Reclamation Contract
            No. 1425-5-CC-40-18140 (02/14/2001) $157,964 Unresolved

Minerals Management Service

2001-E-0355 Ute Indian Tribe, Costs Billed Under Minerals Management Service Cooperative
            Agreement No. 15-35-0002040270 from October 1, 1994 through September 30, 2000
            (05/04/2001) $132,217 Unresolved

National Park Service

2000-E-0289 JCM Control Systems, Incorporated, Costs Billed from January 1, 1997 through
            July 16, 1999 Under National Park Service Contract No. 1443CX300094906
            (03/24/2000) $83,125 Unresolved
2000-E-0607 Harrison and Palmer, Incorporated, Costs Billed Under National Park Service Contract
            No. 1443CX00094906 (08/08/2000) $52,703 Unresolved
2000-E-0706 Southern Insulation, Incorporated, Costs Billed Under National Park Service Contract No.
            1443CX300094906 from November 1, 1996 through June 1, 1999 (09/29/2000)
            $86,262 Unresolved
2001-E-0035 Callas Contractors, Incorporated, Costs Billed Under National Park Service Contract No.
            1443CX300094906 from January 1, 1997 through June 1, 1997 (11/07/2000) $16,425
            Unresolved
2001-E-0036 Capitol Mechanical Construction, Costs Billed Under National Park Service Contract No.
            1443CX300094906 from January 1, 1997 through June 1, 1999 (11/07/2000) $98,194
            Unresolved
2001-E-0244 E.M.S. Consultants, Incorporated, Costs Billed Under National Park Service Contract No.
            1443CX300094906 from May 1, 1996 through June 1, 1999(02/27/2001) $327,330
            Unresolved
2001-E-0336 JCM Control Systems, Incorporation, Costs Billed Under National Park Service Contract
            No. 1444CX300094906 from January 1, 1994 through July 16, 1999 (04/23/2001)
            $109,865 Unresolved




        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 66
Appendix 6 (continued)




2002-E-0002 Community Central Energy Corporation, Amounts Billed Under National Park Service
            Contract No. CX-4000-0-0023 from October 1, 1993 through September 30, 2000
            (12/19/2001) $779,274 Unresolved

U.S. Fish and Wildlife Service

1998-E-0198 U.S. Fish and Wildlife Service Federal Grants to the State of Colorado for Fiscal Years
            1994 and 1995 (01/16/1998) $1,457,264 Unresolved

U.S. Geological Survey

1993-E-0339 TGS Technology, Incorporated, Closing Statement (12/22/1992) $786,501 Unresolved

Single Audits

Bureau of Indian Affairs

1996-A-1122 Northwestern Band of the Shoshoni Nation, Fiscal Year Ended December 31, 1994
            (08/15/1996) 1 Recommendation and $8,940 Unresolved (Circumstances beyond the
            Bureau’s control have delayed resolution of the costs.)
2001-A-0473 Lovelock Paiute Tribes for the Fiscal Year Ended December 31, 1998 (09/27/2001)
            5 Recommendations and $52,000 Unresolved
2001-A-0509 Picayune Rancheria of the Chukchansi Indian Tribe, Fiscal Year Ended December 31, 1998
            (09/19/2001) 8 Recommendations Unresolved
2001-A-0520 Round Valley Indian Tribe, Fiscal Year Ended December 31, 1999 (09/24/2001)
            3 Recommendations and $32,246 Unresolved
2002-A-0045 Rincon San Luiseno Band of Mission Indians, Fiscal Year Ended December 31, 1999
            (10/30/2001) 3 Recommendations Unresolved
2002-A-0067 Pyramid Lake Paiute Tribe, Fiscal Year Ended December 31, 1999 (11/16/2001)
            8 Recommendations and $3,231,341 Unresolved
2002-A-0169 Sherwood Valley Rancheria, Fiscal Year Ended December 31, 1999 (02/05/2002)
            4 Recommendations Unresolved
2002-A-0226 Chief Leschi Schools, Incorporated, Fiscal Year Ended June 30, 2000 (03/21/2002)
            4 Recommendations Unresolved
2002-A-0227 Shonto Governing Board of Education, Incorporated, Fiscal Year Ended June 30, 2000
            (03/21/2002) 5 Recommendations Unresolved




         Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                  67
                                                                              Appendix 6 (continued)




National Park Service

1998-A-0194 Georgia Trust for Historic Preservation, Incorporated, Fiscal Year Ended March 31, 1997
            (12/24/1997) 1 Recommendation Unresolved
1998-A-0229 National Institute for the Conservation of Cultural Property, Incorporated, Fiscal Year
            Ended December 31, 1996 (01/15/1998) 1 Recommendation Unresolved
1998-A-0627 South Carolina Department of Parks, Recreation and Tourism, Fiscal Year Ended
            June 30, 1996 (08/06/1998) 1 Recommendation Unresolved
1998-A-0687 National Conference of State Historic Preservation Officers, Fiscal Year Ended December
            31, 1997 (09/25/1998) 1 Recommendations Unresolved
2000-A-0158 Georgia Trust for Historic Preservation, Incorporated, Fiscal Year Ended March 31, 1998
            (12/17/1999) 1 Recommendation Unresolved
2000-A-0160 Ste. Genevieve, Missouri, Fiscal Year Ended September 30, 1998 (12/17/1999)
            1 Recommendation Unresolved
2000-A-0186 Allegheny Ridge Corporation, Fiscal Year Ended June 30, 1997 (01/13/2000)
            1 Recommendation Unresolved
2001-A-0089 Georgia Trust for Historic Preservation, Incorporated, Fiscal Year Ended March 31, 1999
            (12/14/2000) 1 Recommendation Unresolved
2001-A-0251 Decatur, Alabama, Fiscal Year Ended September 30, 1997 (03/01/2001)
            1 Recommendation Unresolved
2002-A-0028 Georgia Trust for Historic Preservation, Incorporated, Fiscal Year Ended March 31, 2000
            (10/25/2001) 1 Recommendation Unresolved
2002-A-0060 Appalachian Trail Conference, Fiscal Year Ended December 31, 1999 (11/16/2001)
            1 Recommendation Unresolved

Office of Surface Mining Reclamation and Enforcement

2000-A-0087 Sheridan, Wyoming, Fiscal Year Ended June 30, 1998 (11/05/1999) 1 Recommendation
            Unresolved
2002-A-0211 Illinois, Fiscal Year Ended June 30, 2000 (03/15/2002) 1 Recommendation Unresolved

Office of the Secretary

2000-A-0099 Pennsylvania State University, Fiscal Year Ended June 30, 1998 (11/19/1999)
            1 Recommendation and $2,303 Unresolved
2001-A-0450 Connecticut College, New London, Connecticut, Fiscal Year Ended June 30, 1999
            (07/31/2001) 1 Recommendation and $3,234 Unresolved
2000-A-0062 Hawaii, Fiscal Year Ended June 30, 1998 (11/04/1999) 1 Recommendation and $32,167
            Unresolved



        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 68
Appendix 6 (continued)




U.S. Fish and Wildlife Service

1997-A-0993 Virginia, Fiscal Year Ended June 30, 1995 (08/08/1997) 1 Recommendation Unresolved
1997-A-1180 Wisconsin, Fiscal Year Ended June 30, 1995 (09/05/1997) 1 Recommendation and
            $26,410 Unresolved
1997-A-1241 South Carolina, Fiscal Year Ended June 30, 1996 (09/17/1997) 1 Recommendation
            Unresolved
1998-A-0149 Arizona, Fiscal Year Ended June 30, 1996 (12/02/1997) 1 Recommendation Unresolved
2001-A-0195 Utah, Fiscal Year Ended June 30, 1999 (01/29/2001) 1 Recommendation and $30,183
            Unresolved
2001-A-0202 California, Fiscal Year Ended June 30, 1999 (01/29/2001) 1 Recommendation Unresolved
2001-A-0242 New Hampshire, Fiscal Year Ended June 30, 1998 (02/23/2001) 1 Recommendation
            Unresolved
2001-A-0460 Montana, Fiscal Year Ended June 30, 1999 (07/31/2001) 5 Recommendations Unresolved
2002-A-0182 Arkansas Game and Fish Commission, Fiscal Year Ended June 30, 2000 (02/22/2002)
            1 Recommendation Unresolved




        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               69
                                               Appendix 7


                 Summary of Internal Audit Reports Over 6 Months
                        Old Pending Corrective Action
This is a listing of internal audit reports with management decisions over 6 months old for which corrective
action has not been completed. It provides report number, title issue date, and the number of
recommendations without final corrective action. These reports continue to be monitored by the Focus
Leader for Management Control and Audit Follow-up, Assistant Secretary for Policy, Management and
Budget, for completion of corrective action. (Note: The Insular Area reports listed pertain to corrective
actions that pertain to programs funded by the Department of the Interior.)

Bureau of Indian Affairs

1995-I-1402     Wapato Irrigation Project, Bureau of Indian Affairs (09/30/1995) 2 Recommendations
2001-I-0237     Construction Costs of Chief Leschi School, Constructed by the Puyallup Tribe Under
                Bureau of Indian Affairs Replacement School Construction (03/05/2001)
                1 Recommendation
2002-I-0020     Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial Statements for
                Fiscal Years 2001 and 2000 (03/15/2002) 9 Recommendations

Bureau of Land Management
1992-I-0828 Onshore Geophysical Exploration Program (05/26/1992) 2 Recommendations
1995-I-0379 Follow-up of Recommendations Relating to the Bureau of Land Management User Charges
            for Mineral-Related Document Processing (01/23/1995) 2 Recommendations
1995-I-0747 Right-of-Way Grants (03/31/1995) 6 Recommendations
1997-I-1300 Issuance of Mineral Patents, Bureau of Land Management and Office of the Solicitor
            (09/30/1997) 1 Recommendation
1999-I-0677 Rangelands Improvement Program (07/28/1999) 1 Recommendation
1999-I-0808 Cultural Resource Management (09/03/1999) 2 Recommendations
2002-I-0022 Independent Auditors’ Report on the Bureau of Land Management’s Financial Statements
            for Fiscal Years 2001 And 2000 (03/15/2002) 5 Recommendations

Bureau of Reclamation

1994-I-0930     Irrigation of Ineligible Lands (07/11/1994) 3 Recommendations
1998-I-0383     Central Valley Project Restoration Fund (03/31/1998) 1 Recommendation
1998-I-0623     Follow-up of Mainframe Computer Policies and Procedures, Administrative Service Center
                (8/20/1998) 5 Recommendations
1999-I-0588     Lower Brule Sioux Rural Water System, Mni Wiconi Rural Water Supply Project
                (06/24/1999) 1 Recommendation


         Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                      70
Appendix 7 (continued)




1999-I-0627 Oglala Sioux Rural Water Supply System, Mni Wiconi Rural Water Supply Project
            (06/29/1999) 4 Recommendations
2000-I-0376 Concessions Managed by the Bureau Of Reclamation (05/08/2000) 5 Recommendations
2001-I-0408 Bureau of Reclamation’s Financial Statement for Fiscal Year 2000 (06/08/2001)
            1Recommendations
2002-I-0004 Improvements Needed in Security Management of Information Technology Systems
            Supporting Energy and Water Operations (10/26/2001) 3 Recommendations
2002-I-0024 Independent Auditors’ Report on the Bureau Of Reclamation’s Financial Statements for
            Fiscal Years 2001 and 2000 (03/25/2002) 6 Recommendations

Insular Areas

Republic of the Marshall Islands

1999-I-0952    Marshall Islands Development Bank (09/30/1999) 3 Recommendations

Minerals Management Service

2000-I-0279    Oil Royalty-In-Kind Program for Small Refiners (03/27/2000) 1 Recommendation
2002-I-0023    Independent Auditors’ Report on the Minerals Management Service’s Financial Statements
               for Fiscal Years 2001 and 2000 (03/15/2002) 2 Recommendations

Multi-Office

2000-I-0300    Supporting Documentation for Operators Participating in the Stripper Oil Well Property
               Royalty Rate Reduction Program (03/27/2000) 2 Recommendations
2001-I-0421    Audit of Bonding for Oil and Gas Wells on Indian Trust Lands (09/24/2001)
               4 Recommendations
2002-I-0018    U.S. Department of the Interior’s Fiscal Year 2001 Annual Departmental Report on
               Accountability (02/27/2002) 50 Recommendations

National Park Service

1997-I-0908 Automated Law Enforcement System (06/23/1997) 1 Recommendation
1998-I-0406 Followup of Recommendations Concerning Utility Rates Imposed by the National Park
            Service (04/15/1998) 5 Recommendations
1999-I-0518 Audit of Land Acquisition Activities (05/28/1999) 2 Recommendations
1999-I-0959 Deferred Maintenance (09/30/1999) 1 Recommendation
2000-I-0621 Independent Auditors’ Report on the National Park Service’s Financial Statements for
            Fiscal Year 1999 (08/08/2000) 2 Recommendations


        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                   71
                                                                                   Appendix 7 (continued)




2001-I-0116    Collection and Use of Concession Fees (01/11/2001) 1 Recommendation
2001-I-0305    Independent Auditors’ Report on the National Park Service’s Financial Statements for
               Fiscal Year 2000 (03/30/2001) 12 Recommendations
2002-I-0019    Independent Auditors’ Report on the National Park Service’s Financial Statements for
               Fiscal Years 2001 and 2000 (03/15/2002) 14 Recommendations

Office of Surface Mining Reclamation and Enforcement

2001-I-0415    Improvements Made in General Controls Over Automated Information Systems
               (09/21/2001) 1 Recommendation

Office of the Secretary

1998-I-0712    Receipt and Expenditure of Funds by the Utah Reclamation Mitigation and Conservation
               Commission for Fiscal Years 1996 and 1997 (09/30/1998) 3 Recommendations
2001-I-0407    Independent Auditors’ Report on Departmental Offices’ Financial Statements for Fiscal
               Year 2000 (05/31/2001) 3 Recommendations

Office of the Special Trustee for American Indians

1997-I-1168    Judgment Funds Awarded to the Navajo Nation (09/22/1997) 1 Recommendation
2000-I-0434    Independent Auditors’ Report on the Financial Statements for Fiscal Years 1998 and 1999
               for the Office of Special Trustee for American Indians Tribal and Other Special Trust Funds
               and Individual Indian Monies Trust Funds Managed by the Office of Trust Funds
               Management (05/11/2000) 1 Recommendation

U.S. Fish and Wildlife Service

1995-I-0376 Concession Fees (01/17/1995) 1 Recommendation
1997-I-1302 Partners for Wildlife Habitat Restoration Program (09/29/1997) 3 Recommendations
1997-I-1305 Automated Law Enforcement System (09/30/1997) 2 Recommendations
2000-I-0050 Miscellaneous Receipts (11/09/1999) 6 Recommendations
2000-I-0709 Monetary Incentive Awards, Federal Aid Program (09/29/2000) 2 Recommendations
2001-I-0410 U.S. Fish and Wildlife Service’s Financial Statement Audit for Fiscal Year 2000
            (06/24/2001) 2 Recommendations
2002-I-0025 Independent Auditor’s Report on the U.S. Fish and Wildlife Service’s Financial Statements
            for Fiscal Years 2001 and 2000 (03/25/2002) 7 Recommendations




        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                   72
Appendix 7 (continued)




U.S. Geological Survey

1999-I-0381    Additional Controls Needed Over Data Processing Environment at U.S. Geological
               Survey’s Reston Enterprise Data Services Center (03/24/1999) 2 Recommendations




        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                73
                                             Appendix 8



                             Summary of Insular Area Reports
                              With Open Recommendations
                                   Over 6 Months Old
Note: These Insular Area reports contain recommendations made specifically to Insular Area governors
and other Insular Area officials who do not report to the Secretary and are not subject to the policy,
guidance, and administrative oversight established by the Assistant Secretary for Policy, Management and
Budget.

Internal Audits
American Samoa

2002-I-0003    Assessment and Collection of Taxes (11/15/2001) 2 Unimplemented and 11 Unresolved
               Recommendations

Guam

1998-I-0264    Legislature Capital Improvement Fund, Guam Legislature (02/20/1998) 4 Unresolved
               Recommendations
1999-I-0013    On-Call Substitute Teachers, Department of Education (10/21/1998) 1 Unresolved
               Recommendation
1999-I-0255    Federal Grant Program Travel Activities, Department of Education (02/25/1999)
               7 Unresolved Recommendations
1999-I-0455    Extended Day Program, Department of Education (05/11/1999) 8 Unresolved
               Recommendations
2001-I-0417    Loan Programs, Guam Economic Development Authority (09/21/2001) 4 Unresolved
               Recommendations
2001-I-0419    Qualifying Certificate Program, Guam Economic Development Authority (09/30/2001)
               6 Unresolved Recommendations

Republic of the Marshall Islands

1994-I-0021    Capitol Relocation Project (10/18/1993) 2 Unresolved Recommendations

Northern Mariana Islands

1994-I-0936    Follow-up of Recommendations Concerning the Economic Development Loan Fund,
               Commonwealth Development Authority (07/18/1994) 2 Unresolved Recommendations
1996-I-0596    Management of Public Land (03/20/1996) 6 Unresolved Recommendations

         Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                    74
Appendix 8 (continued)




1999-I-0147    Management of Federal Grants, Public School System (12/15/1998) 1 Unresolved
               Recommendation

U.S. Virgin Islands

1991-I-0467    Followup of Recommendations Contained in Report on the Road Fund (02/19/1991)
               1 Unresolved Recommendation
1993-I-0363    Inmate Care, Rehabilitation, and Safety, Bureau of Corrections (12/31/1992)
               10 Unresolved Recommendations
1993-I-0572    Supply and Equipment Management, Department of Education (02/19/1993) 9 Unresolved
               Recommendations
1993-I-0670    Personnel, Property Management, and Procurement Practices, Bureau of Corrections
               (03/11/1993) 14 Unresolved Recommendations
1997-I-0040    Division of Agriculture, Department of Economic Development and Agriculture
               (10/21/1996) 8 Unresolved Recommendations
1997-I-0243    Workmen’s Compensation Program (12/30/1996) 15 Unresolved Recommendations
1998-I-0188    Internal Revenue Taxes, Bureau of Internal Revenue (12/30/1997) 1 Unresolved
               Recommendation
1998-I-0191    Building Permit Fees, Department of Planning and Natural Resources (12/30/1997)
                7 Unimplemented Recommendations
1998-I-0263    Sewage System User Fees (02/20/1998) 5 Unresolved Recommendations
1998-I-0384    Hurricane-Related Contracting, Department of Education (03/31/1998) 4 Unresolved
               Recommendations
1998-I-0468    Followup of Recommendations Relating to the Bureau of Corrections, Department of
               Justice (05/29/1998) 6 Unresolved Recommendations
1998-I-0670    Interfund Loans and Federal Grant Balances (09/09/1998) 14 Unresolved
               Recommendations
1999-I-0365    Followup of Recommendations Relating to Personnel Management Practices, Division of
               Personnel (03/26/1999) 3 Unresolved Recommendations
2001-I-0107    Administrative Functions, Legislature of the Virgin Islands (12/29/2000) 8 Unresolved
               Recommendations
2001-I-0303    Billing and Collection Functions, Virgin Islands Port Authority (03/30/2001) 9 Unresolved
               Recommendations
2002-I-0009    Virgin Islands Housing Finance Authority (12/31/2001) 2 Unresolved Recommendations




        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                  75
                                                                             Appendix 8 (continued)




SINGLE AUDITS

American Samoa

2001-A-0427 American Samoa Government, Fiscal Year Ended September 30, 1996 (07/06/2001)
            1 Recommendation and $426,541 Unresolved

Commonwealth of the Northern Mariana Islands

1998-A-0339 Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 1996
            (03/11/1998) 47 Recommendations and $11,176,309 Unresolved
1999-A-0355 Commonwealth of the Mariana Islands’ Public School System, Fiscal Year Ended
            September 30, 1995 (03/12/1999) 1 Recommendation Unresolved
2001-A-0269 Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 1999
            (03/08/2001) 43 Recommendations and $146,174 Unresolved
2002-A-0180 Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 2000
            (02/19/2002) 1 Recommendation Unresolved

Federated States Of Micronesia

2000-A-0139 Federated States of Micronesia, National Government, Fiscal Year Ended
            September 30, 1998 (12/10/1999) 19 Recommendations and $97,396 Unresolved

Kosrae

1994-A-0367 State of Kosrae, Federated States of Micronesia, Fiscal Year Ended September 30, 1992
            (02/24/1994) 9 Recommendations Unresolved

Pohnpei

1994-A-0527 State of Pohnpei, Federated States of Micronesia, Fiscal Year Ended September 30, 1992
            (04/19/1994) 1 Recommendation and $2,764 Unresolved

Guam

2000-A-0195 Government of Guam, Fiscal Year Ended September 30, 1998 (01/25/2000)
            67 Recommendations and $2,305,544 Unresolved
2001-A-0289 Government of Guam, Fiscal Year Ended September 30, 1999 (03/26/2001)
            35 Recommendations and $3,147,789 Unresolved
2002-A-0164 Government of Guam, Fiscal Year Ended September 30, 2000 (01/30/2002)
            1 Recommendation and $3,526,590 Unresolved
          Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                76
Appendix 8 (continued)




Republic of the Marshall Islands

2001-A-0029 Republic of the Marshall Islands, Fiscal Year Ended September 30, 1999 (10/30/2000)
            28 Recommendations and $2,298,000 Unresolved
2001-A-0498 Republic of the Marshall Islands, Fiscal Year Ended September 30, 2000 (09/17/2001)
            49 Recommendations and $840,522 Unresolved

Republic of Palau

1992-A-0885 Republic of Palau, Fiscal Year Ended September 30, 1989 (06/05/1992)
            1 Recommendation and $40,262 Unresolved
1999-A-0037 Republic of Palau, Fiscal Year Ended September 30, 1997 (10/20/1998)
            21 Recommendations and $1,029,762 Unresolved
2000-A-0000 Republic of Palau, Fiscal Year Ended September 30, 1998 (10/05/1999)
            14 Recommendations and $424,084 Unresolved
2000-A-0393 Palau Community Action Agency, Fiscal Year End September 30, 1998 (04/24/2000)
             6 Recommendations Unresolved
2001-A-0008 Republic of Palau, National Government, Fiscal Year Ended September 30, 1999
            (10/17/2000) 1 Recommendation and $28,888 Unresolved
2001-A-0063 Palau Community College, Fiscal Year Ended September 30, 1999
            (12/04/2000) 14 Recommendations Unresolved
2001-A-0261 Palau Community Action Agency, Fiscal Year Ended September 30, 1999 (03/05/2001)
            10 Recommendations Unresolved




        Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                77
                                          Appendix 9


                        Program Integrity Reports Issued
              During the 6-Month Period Ended September 30, 2002

2001-I-412-PSI      Allegations Concerning Conduct of Department of the Interior Employees
                    Involved in Various Aspects of the COBELL Litigation (06/2002)

2002-I-0039         Homeland Security: Protection of Critical Infrastructure Facilities and
                    National Icons (06/07/2002)

2002-I-0053         Assessment No. 2 - Critical Infrastructure Systems (09/25/2002)




       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                                 78
                                        Appendix 10

                  Cross-References to the Inspector General Act

                                                                                     Page
Inspector General Act of 1978, as amended

Section 4(a)(2)         Review of Legislation and Regulations                       N/A*

Section 5(a)(1)         Significant Problems, Abuses, and Deficiencies               3-31

Section 5(a)(2)         Recommendations for Corrective Action with Respect
                        to Significant Problems, Abuses, and Deficiencies            3-31

Section 5(a)(3)         Significant Recommendations from Agency's Previous
                        Reports on which Corrective Action has not been
                        Completed                                                   70-73

Section 5(a)(4)         Matters Referred to Prosecutive Authorities and Resulting
                        Convictions                                                    ii

Section 5(a)(5)         Matters Reported to the Head of the Agency                  N/A*

Section 5(a)(6)         List of Audit Reports Issued during the Reporting Period    33-35

Section 5(a)(7)         Summary of Significant Reports                               3-31

Section 5(a)(8)         Statistical Table - Questioned Costs                           62

Section 5(a)(9)         Statistical Table - Recommendations that Funds be
                        Put to Better Use                                              63

Section 5(a)(10)        Summary of Audit Reports Issued before the
                        Commencement of the Reporting Period for which
                        no Management Decision has been made                        70-73

Section 5(a)(11)        Significant Revised Management Decisions made
                        during the Reporting Period                                 N/A*

Section 5(a)(12)        Significant Management Decisions with which the
                        Inspector General is in Disagreement                        N/A*

Section 5(a)(13)        Information Described Under Section 05(b) of the Federal
                        Financial Management Improvement Act of 1996                N/A*




*N/A: Nothing to report this period.



       Semiannual Report to the Congress: April 1, 2002 - September 30, 2002
                                               79
                              General Information




Send Requests for Publications to:


U.S. Department of the Interior      (202) 219-3841
Office of Inspector General
1849 C Street, NW
Mail Stop 5341, MIB
Washington, D.C. 20240



Facsimile Number:                    (202) 208-4998



World Wide Web Site:                 www.oig.doi.gov
                  How to Report
      Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office
of Inspector General staff, Departmental employees, and the general public.
We actively solicit allegations of any inefficient and wasteful practices,
fraud, and abuse related to Departmental or Insular Area programs and
operations. You can report allegations to us by:


        Mail:           U.S. Department of the Interior
                        Office of Inspector General
                        Mail Stop 5341-MIB
                        1849 C Street, NW
                        Washington, DC 20240

        Phone:          24-Hour Toll Free                 800-424-5081
                        Washington Metro Area             202-208-5300
                        Hearing Impaired (TTY)            202-208-2420
                        Fax                               202-208-6081
                        Caribbean Region                  340-774-8300
                        Northern Pacific Region           671-647-6051

        Internet:       www.oig.doi.gov/hotline_form.html
U.S. Department of the Interior
  Office of Inspector General
      1849 C Street, N.W.
   Washington, D.C. 20240
          www.doi.gov
         www.oig.doi.gov
